APPENDIX I
Opinions from Lower Courts

13

Case 2:19-cv-00559-SPC-MRM Document 5 Filed 08/14/19 Page 1 of 2 PagelD 79

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
FORT MYERS DIVISION
JOSEPH D. GILBERT!, JR.,
Plaintiff,
v..

Case No.: 2:19-cv-558-F1M-38MRM

ADRURRA GROUP INC.,
HENNINGSON, DURAM &
RICHARDSON, INC., STANTEC
CONSULTING SERVICES, INC.,
CAROLLO ENGINEERS, INC.,
PROGRESSIVE WATER
RESOURCES, LLC and HAZEN
AND SAWYER, PC,
Defendants.
ORDER1
Before the Court is a sua sponfe review of pro se Plaintiff Joseph Gilbert], Jr.’s
Complaint (Doc. 1). Gilbert] sues Defendant-companies because his ranch mi Sarasota,
Florida has access to an "endless underground spring river... potentially tied to a much
deeper Global vast Ocean” that Defendants are hiding from the public. (Doc. 1 at 6).
Middle District of Florida Local Rule 1.02(c) provides that “Ta]!l civil proceedings of
any Hand shatll be irrosliiitWed iin that Division encompassing the county or coiurnies having
the greatest nexus with the cause, giving due regard to the place where the claim arose
and the residence or principal place of business of the parties.” Local Rule 1 02(c). The

11 Dfedlainmer: Dtamirmemte fined inn CMECF maty ©nmtiairm Knypeirlirnfcs to after Gtocumnemtls <nr wefesiilies. Iffnese
hyperfinks are provided only for users’ convenience. Users are cautioned that hyperfinked documents in
CM/ECF are subject to PACER fees. By allowing hyperlinks to other websites, this Court does not endorse,
recommend, approve, or guarantee any third parties or the services or products they provide on their
websites. Likewise, She Court has no agreements with any of ttiese third parties or their websites. The
Court accepts no responsiiMly far flue awaiaMHy or fimcfonaBty of any hyperfinfc. Thus, the fact that a
Hnjpertimk ceases to wrak or dfirecfis fflne iu®er to some rater site does not affietit lie cpiinumni df lie Court

Case 2:19-cv-00559-SPC-MRM Document 5 Filed 08/14/19 Page 2 of 2 PagelD 80

only nexus to the Fort Myers Division is Gilberti being in Lee County.

But all six

Defendants are in Tampa, Sarasota, and New York. And Gilbert's property with the
access to the uralerground river is in Sarasota. Gilbert allso connects much of the alllleged
wrongdoing to Defendants’ service contracts with the Peace River Manasota Water
Supplly Authority. Because the Tampa Division has the greatest nexus with this sunt, the
Court transfers it to that division.
Accordingly, it is now
ORDERED:
The Clerk of Court is directed to TRANSFER this case to the Tampa Division of
the Middle District of Florida ami CLOSE the Fort Myers case file.
DONE and ORDERED iim Fort Myers, Ftonda on fflws 14th day off August: 2019.

SHERD POLSTERCHAPPElfcL-'
OINMTED STATES DISTRICTJUDGE

Copies: All Parties of Record

2

Case 8:19-cv-02012-VMC-AAS Document 52 Filed 12/02/19 Page 1 of 7 PagelD 545

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DI¥ISIOM
JOSEPH ID). GILBERT!, JR.,
Plaintiff,
Case Mo. 8:19-cw-2012-T-33AAS
ABMDRRA GROUP, IMC., ett al..
Defendants.
ORDER
This matter comes before the Court upon consideration of
Motions to Dismiss filed by Defendants Adrurra Group, Inc.,
Henningson,

Duram

&

Richardson,

Services, Inc., Carello Engineers,

Inc.,
Inc.,

Santee

Consulting

Progressive Water

Resources, ULC, and Hazen and Sawyer, PC. (Doc. ## 8, 14, 16,
18, 35, 42). Pro se Plaintiff Joseph D. Gilberti, Jr., has
responded to each Motion.

(Doc.

## 17,

26,

45) .

For the

reasons that follow, the Motions are granted.
I.

Background
The Complaint, which is titled "Racketeer Influenced and

Corrupt Organization Act (( "RICO' )) , m names six Defendants, all
of which are engineering firms with offices in Tampa or
Sarasota. (Doc. # 1J. In the Complaint, Gilberti states that
he "owns land in Sarasota County with a critical underground
1

Case 8:19-cv-02012-VMC-AAS Document 52 Filed 12/02/19 Page 2 of 7 PagelD 546

Aquifer with medicine changing readings that are capable of
delivering antioxidant Spring water supply to over 10 million
taps from Tampa to Miami."' ([Id. at 5—. He asserts that
Defendants are "purposely designing massive unsustainable
infrastructure systems between polluted rivers systems while
hiding lower [Floridian] endless alkaline spring water on Tax
dollars with continuing service contracts in the SarasotaTampa[[—JFort Myers regions of West Florida.* ((Id. at 1—2)) .
The

Complaint

alleges

that

Defendants

"formed

a

strategic alliance with MOSAIC and local Agencies, Hospitals,
Hospital Foundations,

Leaders, Banks[,]

groups to keep Cancer rising."
according to Gilbert!,
Transmission

System

"'[a]

to

(Id.

and Pharmaceutical

at 9) .

For instance,

proposed 15 County,

serve

Tampa

to

South

SO City
Florida

antioxidant spring water is hidden by all Florida Leaders and
the Defendants to keep Cancer and Opioids rising as an
epidemic in Florida and USA." (Id. at 5).
Tn addition, the Complaint states that, after Hurricane
Charley struck Florida in 20111)4, Defendants ^conspired to hide
a critical US underground river
R.W

Griffin

Reservoir

claiming

. . in an effort to build
water

shortages

that

is

essentially a ZIKA pond and future Water supply Terrorist
2

Case 8:19-cv-02012-VMC-AAS Document 52 Filed 12702/19 Page 3 of 7 PagelD 547

attack from an old Phosphate mine exposed to Drones and low
flying

pesticide

planes

exactly

[where]

9-11

Terrorist

practiced two weeks before the 9-11 attack." ([Id. at 10—11} .
Gilbert!

claims

that

"[t]his

ongoing

scam

to

sell

medicine [and] kill people with increasing Cancer Rates fro*.
increasing polluted raw water resources poisoned businesses,
[and]

schools,

residents

for

approximately

a

40[-]year

period, and billed business and residents at rates that were
one of the highest in the nation for toxic water that was
insnitable for use." ((Id. at 10)) .
The
which

Complaint

Gilberti

includes

alleges

"RICO

that

Action

Defendants

Allegations"

have

violated

in
18

0.S.C. § 1962, which is a criminal racketeering statute. [Id.
at 9). In addition, the Complaint includes claims under the
Florida Pollutant Discharge Prevention and Control Act,

as

well as common law claims for strict liability and nuisance.
(Id. at 25-29).
Among other forms of relief, Gilberti seeks to "|c]all
in all Oefemdamts [' ] Clients, project Engineers, Managers and
sub-consultants

and

knowledge"

the

Furthermore,

of
he

put

them

alleged

requests

on

Lie

Detectors

conspiracy.

that
3

Defendants

(Id.
"be

of

their

at

26) .

reported

to

Case 8:19-cv-02012-VMC-AAS Document 52 Filed 12/02/19 Page 4 of 7 PagelD 548

President Trump,

[the] US Attorney[']s Office, Congress and

the OS Military for Potential OS Treason." (Id. at 29) . As
noted above, all six Defendants in this action have moved to
dismiss the Complaint- The Motions are ripe for review.
II.

Discussion
Defendants' Motions raise the same three arguments in

favor of dismissal:
jurisdiction

(i)

becanse

the Court

Gilbert!'s

lacks
claims

subject matter
are

patently

insubstantial; (ii) the Complaint fails to state a claim under
Federal Ruffe of Civil Procedure 12(b)(6);

and

(iii)

the

Complaint is an impermissible shotgun pleading. As discussed
below,

the

Court

finds

that

it

lacks

subject

matter

jurisdiction over this case.
"Federal courts are courts of limited jurisdiction."
Kokkonen v. Guardian Life Ins. Co., 511 U.S. 375, 377 (1994).
Thus, the burden of establishing jurisdiction rests upon the
party asserting it. Id. "While complaints filed by pro se
litigants are held to less stringent standards than those
applied to formal pleadings drafted by lawyers, even a pro se
plaintiff bears the burden of establishing that the Court has
subject matter jurisdiction." Grady v. P.S. Pep't of Defense,
No. 16-14293-ROSENBERG, 2017 WL 35531, at *1 (S.D. Fla. Jan.
4

Case 8:19-cv-02012-VMC-AAS Document 52 Filed 12/02/19 Page 5 of 7 PagelD 549

4, 2017)

(citation omitted).

"[FJederal courts are without power to entertain claims
that are "so attenuated and unsubstantial as to be absolutely
devoid of merit. / // Hagans v. Lavine,
((1974))

415 U.S. 528, 536-37

((quoting Mewburyport Water Co. ¥. Mewburyport,

193

U.S. 561, 579 (1904)). In other words, "no federal question
jurisdiction

exists

'when

the

complaint

is

patently

insubstantial" Grady, 2©17 ML 35531, at *2 ((quoting Best w.
Kelly, 39 F.3d 328, 330 (D.C. Cir. 1994)).
"Patently
involve

insubstantial"

essentially

claims

fictitious

include

allegations

those which
and

"bizarre

conspiracy theories." Farris v. MetLife, Inc., No. 6:18-cv278-Orl-41KRS, 2018 WL 4938684, at *4

(M.D. Fla. May 21,

2018), adopted, 2018 WL 4931818 (M.D. Fla. Oct. 11, 2018);
see also Grady,

2017 WL 35531,

at *2

(["Claims that are

essentially fictitious include those that allege

"bizarre

conspiracy theories, any fantastic government manipulations
of

their

will

or

mind

[or]

any

sort

of

supernatural

intervention. f n (quoting Best, 39 F.3d at 330)).
At the heart of the Complaint in this

case is

the

'quintessential "bizarre conspiracy theory" that precludes
courts

from exercising subject matter jurisdiction.
5

See,

Case 8:19-cv-02012-VMC-AAS Document 52 Filed 12/02/19 Page 6 of 7 PagelD 550

e.g., Farris, 2018 WL 4938684, at *4 (finding that a complaint
alleging that defendant MetLife, Inc., stalked and harassed
the plaintiff over two decades by,
"torturing"
messaging

him
to

with

alienate

loud

sounds

him

from

among other things.
and

using

subliminal

and

co-'workers

friends

warranted dismissal for lack of subject matter jurisdiction);
Watson v. United States, Wo. 2:09-cv-19-WKM, 2009 WL 2960353,
at *4 ((M.O. M.a. Sep. 10, 2009))

((finding that a plaintiff's

claim that federal judges and prosecutors conspired over a
fifteen-year period to obstruct his ability to litigate a fee
dispute with a law firm that briefly represented him in two
state-court matters in the early 1990s was
Imsmbstamtlal'

and

Insufficient

to

\N \

constitutionally

sustain

this

Court's

subject matter jurisdiction").
In fact,

a similar case brought by Gilberti in the

District of Columbia was recently dismissed on the same basis.
Gilberti v. Fed. Reserve Sys., No. 19-cv-0738 (KBJ), 2019 WL
1901293 ([O.B-C. Apr. 29, 2019J, appeal docketed. Wo. 19-5264
((B.C. Cir. Sep. 30, 2019)) - The court In that case explained
that

Gilbert!'s

allegations

of

a

conspiracy

to

hide

underground sources of drinking water were "clearly of the
type that courts routinely dismiss as patently insubstantial
6

Case 8:19-cv-02012-VMC-AAS Document 52 Filed 12/02/19 Page 7 of 7 PagelD 551

under Fed. R. Civ. P. 12(b)(1)." Id. at *2.
Likewise, the Complaint in this case sets forth the type
of bizarre conspiracy theory that is "so attenuated and
unsubstantial as to be absolutely devoid of merit."
Hagans,

415 HJ.S.

at

536.

Thus,

the

Complaint

See

fails

to

establish that the Court has subject matter jurisdiction,
even under the liberal pleading standard for pro se litigants.
Hawing concluded that it lacks subject matter jurisdiction
over

this

case,

the

Court need not

address

Defendants'

remaining arguments for dismissal.
Accordingly, it is
ORDERED, ADJUDGED, and DECREED:
Defendants" Motions to Dismiss |Doc. ## 8, 14, 16, 18,
35, 42) are GRANTED.
(2)

Pro se Plaintiff Joseph D. Gilbert!,

Jr.'s Complaint

([Doc. #1) is DISMISSED WITHOUT PREJUDICE.
(3)

The Clerk is directed to CLOSE THE CASE.
DOME and ORDERED in Chambers, in Tampa, Florida, this

2nd day of December, 2019.

- i

VIRGINIA M. HERNANDEZTXWINGTON
UNITED STATES DISTRICT JUDGE

USCA11 Case: 19-15176

Date Filed: 10/20/2020

Page: 1 of 1

M THE UNITED STATES COURT CM7 APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-J5176-EE
JOSEPH DENNIS GILBERTI, JR.,
Plaintiff- Appellant,

versus
ADRURRA GROUP, INC,
a Florida corporation flea.
King Engineering Associates, Inc,
HEMMMGSOM, DURAM & RICHARDSON, MG,
a Florida corporation a.k.a. HDR, Inc,
STANTF.C CONSULTING SERVICES, INC,
a Florida corporation.
CAROLLO
IS, INC,
a Ftaida (DorpoiralfiDsni,
PROGRESSIVE WATER RESOURCES, LLC,
a Florida limited liability corporation,
HAZEN AND SAWYER, PC,
a Florida corporation,
Defendants - Appellees.
Appeal ffiosn tine IMtail Stales District Conirtt
for the Middle District of Florida
ON Pin mOMSl FOR REHEARING AND PEHTTONfSI FOR REHEARING EN BANC
BEFORE: WILLIAM PRYOR, OsfefJndlge, JILL PRYOR md HULL, Circmtt Jfaiigss.
PER CURIAM:
'Hue Petiton for Rdneairmg Era Banc is DENIED, no judge in regular activ e service on the Court
faring mpestaS tHatt tine Ooatnrtt be poled «m refliearirag cm banc, (FRAP 35) The PterittBmiloir
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)
ORD-42

USCA11 Case: 19-15176

Date Filed: 10/20/2020

Page: 1 of 1

TOUTED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
HUBERT PARR TOTTtE COOKT OF APHEALS BOHUMINIG
SfiRmsgtHIn SUnd^MLW.
Altaito, d3eci®ai 30HB3B
David J. Smith

For rules and forms visit
www.cal 1.uscourts.gov

OBiktfClsHiitt

October 20,2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 19-15176-EE
Case Style: Joseph Gilberti, Jr. v. Adrurra Group. Inc_ et al
DMrDdt Court Docket Mo: 8:19-ev-020! 2-VMC-AAS
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41 -1 for
jnPjgftinHKhng i«a«aiswinE: anraril «aay ofmandate-

Sincerely,
DAVID J. SMITH, Oak of Court
Reply to: Elora Jackson/jc
Phone #: (404) 335-6173
EEHG-1 |Jr Order Petition Rehearing

Case: 19-15176

Date ffleoif Z^/23/2020

Page: 1 of 6

IDO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-15176
Non-Aigument Calendar
D.C. Docket No. 8:19-ev-02012-VMC-AAS
JOSEPH DENNIS GILBERT!, JR.,
Plaintiff-Appellant,
versus

ADRURRA GROUP, INC.,
a Florida corporation f.k.a.
Kim® Engineering Associates. Ine.,
HENNINGSON, DURAM & RICHARDSON, INC.,
a Florida corporation a.k.a. HDR, Inc.,
STANTEC CONSULTING SERVICES, INC.,
a Florida corporation,
CAROLLO ENGINEERS, INC.,
a Florida corporation,
PROGRESSIVE WATER RESOURCES, EEC
a Florida limited liability corporation,
HAZEN AND SAWYER, PC,
a Florida corporation,
Defendants-Appellees.

Case: 19-15176

Date (ffleoifiZp/23/2020

Page: 2 of 6

Appeal from the United States District Court
for die Middle District of Florida
(April 23,2020)
Before WILLIAM PRYOR, JILL PRYOR and HULL, Circuit Judges.
PER CURIAM:
Joseph Gilbert], pr

ling pro se, appeals the district court’s dismissal

without prejudice of his complaint on the ground that his claims were wholly
msulU.»a k 11 tial and. thus, failed to confer subject matterjurisdiction. The six appellees
have jointly moved for summary affirmance and to stay the briefing schedule.
Summary disposition is appropriate either where time is of the essence, such
as “situations where important public policy issues are involved or those where
rights delay ed are rights denied,” or where “the position of one of the parties is
clearly right as a matter of law so that there can be no substantial question as to the
outcome of the case, or where, as is more frequently the case, the appeal is
frivolous.” Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
An appeal is frivolous if it is “without arguable merit either in law or fact.” Napier
v. Preslicka, 314 F.3d 528, 531 (11th Cir. 2002).

1 We are bound by cases decided by the former Fifth Circuit before October 1, 1981.
Bonner vl City ofPritchard, 661 F_2d 1206,1209 (11th Cir. 1981) (en banc).
2

Case: 19-15176

Date f|8aaf 7)1/23/2020

Page: 3 of 6

We review de now a district court’s grant of a motion to dismiss Ibr lack of
subject matter jurisdiction under Fed. R. Civ. P. 12(bXl)- Barbour v. Haley, All
F3d 1222, 1225 (11th Cir. 2006). Generally, the plaintiff most allege, with
particularity, facts necessary to establishjurisdiction and must support his allegation
if challenged to do so. Morrison v. Allstate Indem. Co., 228 F3d 1255,1273 (11th
Cir. 2000). Pro se pleadings are held to a less stringent standard than counseled
pleadings and, theretore, are liberally construed. Tannenbatmi v. United States, 148
F.3d 1262,1263 (11th Cir. 1998). Nevertheless,pro se litigants are still required to
conform to pr •»:<!iural rules. A/bra v. Advarr Inc., 490 F.3d 826, 829 (11th Cir.
2007). The district court is not required to “rewrite an otherwise deficient pleading
in order to sustain an action.” Campbell v. Air Jamaica Ltd,, 760 F3d 1165,116869 (11th Cir. 2014).
To merit dismissal for lack of subject matter jurisdiction, a claim that
apparently arises under the Constitution or federal statutes must be “patently without
merit” McGinnis v. Ingram Equip. Cb.,918F3d 1491,1494 (11th Cir. 1990). Even
where a claim appears to invoke the federal question jurisdiction of the district court,
the claim may be dismissed for lack of subject matter jurisdiction if (1) die claim is
“immaterial and made solely for the purpose of obtaining jurisdiction”; or (2) the
“claim is wholly insullaCHII tial and frivolous.” Blue Cross & Blue Shield ofAla. v.
Sanders, 138 F.3d 1347, 1352 (11th Cir. 1998). The Supreme Court has held that
3

Case: 19-15176

Date fpaf:7^/23/2020

Page: 4 of 6

dfamiissal under Fed. R. Ck P. 12(bXl) is warranted in cases where due claims are
“essentially fictitious” and “obviously without merit.” Hagans v. Lavine, 415 U.S.
528,537 (1974).
Here, there is no substantial question that the district court lacked subject
matter jurisdiction and that Gilberti’s appeal is frivolous. See Groendyke Trampi,
Inc., 406 F.3d at 1162. Liberally construing Gilberti’s brief, his argument that the
district court had jurisdiction—because the jurisdiction issue was intertwined with
the merits—is without arguable merit. See Napier, 314 F.3d at 531. Gilberti
essentially argues that, had die district court allowed discovery, it would have
concluded that his complaint stated a claim. But the district court was not required
to iadllitate discovery to discover facts that would sustain Gilberti’s claims and, in
fact, it could not allow discovery to proceed without first determining whether it had
subject matterjurisdiction. See Campbell, 760 F.3d at 1168-69 (staling that district
courts are not required to “rewrite an otherwise deficient pleading in order to sustain
an action7*): see also Ant. Civ. Liberties Union ofFla., Inc., v. City ofSarasota, 859
F.3d 1337, 1340 (11th Cir. 2017) (“[Bjecause of the fundamental constitutional
precept of limited federal power, a district court should inquire into whether it has
subject-matter jurisdiction at the earliest possible stage in the proceedings.”
(quotation marks and brackets omitted)). Moreover, it was Gilberti’s burden to plead

4

Case: 19-15176

Date

ZJ1/23/2020

Page: 5 of 6

feeds saiffiraanf to establish dine district court”s jjwisdidtMm in his complaint. See

Morrison, 228 F.3d at 1273.
To the extent that Gilbert! argues, in reliance on Morrison v. Atmmy Corp..
that the district court essentially conducted a Rule 12(b)(6) analysis because, as he
asserts, the merits of his claims woe intertwined with the jurisdiction issue, that
argument is not supported by the district court’s dismissal order. The district court
did not address the merits ofGdhertTs claim, as Rule 12(bX6) requires, because, to
do so, it would have had to explain why the facts he alleged failed to satisfy the
elements for the RICO claim (and the other federal and state law claims) that he
asserted. And as we stated in Amway Corp, “jurisdiction becomes intertwined with
the merits of a cause of action when a statute prov ides the basis for both the subject
matter jurisdiction of the federal court and the plaintiffs substantive claim for
relief.” Anrnay Corp., 323 F3d at 926 (quotation marks omitted). Here, the RICO
statute did not provide the district court with a basis for subject matter jurisdiction—
which could exist only under either § 1331 or § 1332—but instead provided only the
basis for Gilberti’s claim for relief. See id.
Additionally, the appellees’ contention that die district court did not err in
concluding that Gilberti’s claims were “patently without merit” is correct as a matter
of law. See McGinnis. 918 E_2d at 1494. Even assuming arguendo that Gilbert!

2 Morrison v. Anrn ay Corpl, 323 F.3d 920 (11th Cir. 2003).
5

Case: 19-15176

Date (fteaf 7)1/23/2020

Page: 6 of 6

does have am endless alkaline spring water aquifer (the “Bile Gold river5) looted

under his property, he has failed to establish that the appellees, all of whom are
Florida entities, conspired together to keep the aquifer's existence a secret, such that
a RICO claim may have been sufficiently alleged. Gilberti offered no evidence or
factual support for his incredulous accusations that die appellees worked together to,
inter alia, (1) increase cancer rates; (2) raise water bills; (3) encourage the opioid
epidemic; or (4) encourage domestic terrorism.

The outlandish nature of his

allegations is further evidenced by his requests for relief that federal courts generally
cannot provide; including (1) reporting die appellees to President Trump, die U.S.
Attorney’s Office, Congress, and the military for investigation of treason; (2)
ordering the appellees to provide expedited funding for connecting the Blue Gold
river to the local water system; and (3) investigating the engineers employed by
defendant firms.

Thus, the district court correctly determined that Gilberti5s

complaint warranted dismissal under Fed. R. Civ. P. 12(b)(1) because his claims
woe “essentially fictitious” and “obviously without merit.” See Hagans, 415 U.S.
at 537; see also Blue Cross & Blue Shield ofAla., 138 F.3d at 1352.
Thus, as there is no sul

tial question about the outcome of the case, and

Gilberti’s appeal is clearly frivolous, we GRANT the appellees’ motion for summary
affirmance. See Groentfyke Tramp., Ine.,4Q6F2dat 1162. Accordingly, we DEMY
the accompanying motion to stay the briefing schedule as moot.
6

Case: 19-15176

Date l(IMZJI/23/2020

Page: 1 of 1

iimoimmcoiMOFAH^
roRTHEiiiHimamir
E(LQO^^S^iniIJinnL£<DS0WS{Fiftffff£MSM]]|[LaEaMD
SEfftn^dh Sttsm,]BTW.
David J. Smith
OMkaffttmitiL

For rules and forms visit
www. cal 1.uscourts.gov

Ajml23,2(M)
MEMffiStMiWDMTOOOTiJSELOKPiWIlIES
Appeal Number I9-15I76-EE
Case Style: Joseph Gilberti, Jr. v. Adrurra Group, Inc., et al
Distort Corat Docket .No: *:19-cv-02OI2-VMC-AAS

Ca9cl;aesrECFm)»J3*i™»
ECF
account at www.pacer.gov. Information and training materials related to electronic filing, are available at
www.cal 1.uscourts.gov. Enclosed is a copy of the court's decision filed today in this appeal. Judgment has this day been
at a
.ttaJFRAP 36. The court's
dateim
with FRAP 4ip»J.
wHi
«K>

Hie tfimne lar filfii® afrtSffiaan fiamdioraiBig fe gawenmadlg' Utdb C3ir.. K_ 4K5F3,,
ttfimn^ffiiir
tamci® gBsemnafllby Mlfli din. 1R_ 35-2. Esfflqpttas
:pra9siaMlyffMP2SH)ffiara
an
or for rehearing en banc is timely only ifreceived in the clerk's office within die time specified in die rules. Costs are governed
by FRAP 39 and 11th Cir.R. 39-1. The tuning, format, and content of a motion for attorney's fees and an objection thereto is
gammed by 11th Cir. R. 39-2 and 39-3.
<am

passu® sand fflrtBfes Ifetad am «dH BjatfifesttepowsoKlly fitoi tty any fatly ftm tfflae iqpjraiL Sss: 11 Mb Cfir. K. 26.11-11. In
ai
copy ofdie opinion sought to be reheard must be included in any petition for rehearing or petition for rehearing en banc. See
11th Cir. R. 35-5(k) and 40-1.

fcCirikimiirf
a
fart*
(»<da$s:
feO..$_S«ipiEKC0«rfapafflfii0m
oft
ociflitfisrarrii ((wdbidtafflar i® [tmar)) wimtte eWesordter sjattaraL Hkase: msnKaattJte QA Team) at ((4M))335-6D®7 ear
qa_evoucher@ca! 1 .uscourts.gov for questions regarding CJA vouchers or die eVoucher system.
Cimmnsdl apipmiifcdl

Please use the most recent version ofthe Bill of Costs form available on die court’s website at www.cal 1 .uscourts.gov.
ffwtpKstfisns
Mirny- ffisir affll <sttomiis«iwn®.
Sincerely,
BAWD I. SMITH, Oedk ofOmit
JHl.CWk
Kejiilytta:
Marne #: 4M-335-6S51
OPIN-1A Issuance of Opinion With Costs

APPENDIX II
Joseph D. Gilberti P.E. vs Center of Disease Control and Prevention. (CPC), et al.
-With official subpoena »ired to President Trump at. Mar a Larg© - Ser?ral-

14

United States District Court
fra-the
Central District of California
Joseph D. Gilbert!, P.E.
Plabriff
w.

)
)
)

CemtefflffOEaea^Ont*oll&Flfewen#ikm(CDC),,etaL

)

Defendant

)

CMI Action Mo. 220-ow^l8251-FMO-PVC

SUBPOENA TO TESTIFY AT A DEPOSITIOMIV A CIVIL ACnON
Domafei JL Tnwin, USu PaesfeSont
(2PH6 to 2020)

T©:

(Name ofperson to whom this subpoena is directed)

STestimony™ YOU ARE COMMANDED to appear at tte time, date, *nd place set ferth below to testily at a
. ^roffiffijmitotelalkOTmlSHBcmlactifflnLlf'^©■ainEOTaipmmz^laim^j^iiinHftfKaEiip^caBd&riimgQiodl'&llliiwSiatfes
][rarttyflmiiiii^fliiraffliipnmfflafentelltetliailOm«'mijgimBflte«s^<w filing
or more officers, directors, or managing agents, or designate other persons who consent to testify on your behalf about
these matters:
Plaice;

Daste and Time:

Jimim Zoom Uteeting
fs©eaiadhiedCaiMinifBtoiictions)
Tire rtpp»giHnn will hn rrennfiM hw thi* nrertiorl-

©3W/2S312H miSsatim
Sarasota, Florida (Zoom) OfBdai Court Reporter

siPmdm^OK YflBirOrynnriqpnaBBBtMfiiMjtiinMtaBimlMiiiig^wlhjwitotlhedqpiriiiMiitahefiillwM^dnBwiMmllit,,

material: All information related to this case and refated cases, as fisted rn the complaint AH information
related Marjories Stoneman Douglas Shooting, Lake O Blue Green Algae, Giiberti vs Federal
Reserve,et ai, and GCierfi vs Desantis, eLaL, and other cases fifed related to this property showing
and inque emless rearing far water, energy and medkane production on fife at FDEP.
The MlowingprovisTOtB ofFed.lL CSv. P. 45 are attached Role 45(c), relating to the place ofcompliance;
Rule 45(d), relating to your protection as a person subj
; and Rule 45(e) and (g), relating to your duty to
respond to tlas subpoena and the potential
so.
Date JSrib-32021
CEJEMKOFjd
OR
ctfCSniorlSepmtp&m

Aaomrf\ iigmitmrr

Joseph D. Gilberli, P.E.
, who issues or requests this subpoena, are:
385 Doncra Btwd, Fort Myers Beach, Florida 33931, gtoeffiW2ter@gmal.com.813-470-6000
rfrtirrtn thrprrmn nhaiiTi !■ rripnili liii mlipoiwi
Wittes ■BnftflmTOmffi<raOTTmmm<^itne]praanizftM^

trial, a notice and a copy of the subpoena must be served on each party in this case before it is served on the person to
whom it is directed. Fed R. Civ. P. 45(aX4).
PDF Created with desKBKF PDF Creator X - Trial : : http://www.docudesk.cxm

(ptotK.

TIfflrtfiffyaftgtTTB^tamlfrmi jtmafffikifll iftgtingm

Civil Action No. 2:20-cv-08251-FMO-PVC

PROOF OF SERVICE
(Ite**xGo*sammUmaiteJ^wiA1ketmmwatas!wap6mitgpF*i.M.GiiifL45.)
I received this subpoena for (name ofindividual and tide, ifany)

on (dale)

;or

Unless the stApoenzwas issued on bdialfof'Ae United States, or one offfils officeu or agents,, I have ako
tiyftangrj;acdlliemifa^3ilkrcml%

My fees are S

for travel and S

for services, for a total ofS

0.00

I dedarc under penalty ofpetjjray (hat tins information is true.
Date:

Primed name andtide

Server’s address
A<tUirffiMBBKdl iigfflagiiiiiiaflnnBajrgi^^igffiiai^atBiawa^gteilfflMraggma eftaj:

BDF Created with deskPDF PDF Creator X - Trial := hfrtp-//miw «Wiirii«»nV mm

Federal Role of Civil Procedure 45 (c), (d), (e), and (g) (Effective 12/1/13)
(4

gnirfliartw/ifej

QfedoMgc
gTgmiaiwwtatjal Shi

(T[| fTn <i Tifttf nbwiii^ er/VyrratfiTi A Tnfijpggffimgy

^W^gjrprihwnii^flni mrrtfriwiTBifl
<nr ffufSirfrifipm ffiwff
nff^<gWnHfoR<4^nWir.fflnnnfflmrrpEftTfflfffHff»«Kfm<yfliiacBiitaij^^

\m

Hnawani Itmirtthnrfl m-ftrmi^ Attuning /irrvflbu tmiltiani rerffly otr ffHlh'tw

(A) within 100 antes ofwherc the perron resides, is employed, nr
regularly transacts business in person; or
the
«ta,BC>m<u)Ptor«iffllariy
ttmamgnrttelhiiriBnffgBiwi
iftbe*
® isiapatiy<irajnfp*s
rfbwB fta gfftairfl mttmri! atnil vmpnfM mgfttntnnr jinffrKftfti»Ttfbl
@8®

study that was not requested by a party.
(Q Specifying Conditions as an Alternative, In the circumstances
described in Raie45(i9P9CBXtt|e cant nay, iartcad ofqaasfasg or
^aaiSSjfB£ ftjjBhpoesa^ (Eds* ^ppesAssoc or pHo^tacffios
coflcd^ioBs offfise

m

ferr flfttt ftgutfiir.ifln>y girtiiuftamril tfhrtt tpnimfti 1)pp
fflffltaMOBffiingti ywifliniftwiifliig ftMnlbflr^ amfl
>|IWtfU onflyMwiMwB |iwnam

<■>

(2) For Other Discovery. A subpoena may command:
(A) fmHmrinn ofdocumented Achnniftilly (rfftfwl mthrmflrion^ nr

(») Hn*« In pAcpnnding An a Snhpnena-

jgifelMigntapiiawi&a lCOnriUctrfwfcnethepennursidn^is
eeqfifl5«4 dm^briy tssaasSs tnmB&Bnperaa^; ad
^jBj^ nm!||!iHftfiiUii of^JEBOES flfi

Qnr

fflJWW*

Jjg MQSpBCfiBdL

These
ft*jpnaweMta^ elfMr,n’'3giBiH. nr gjwe*n^aHraj|y

rilfilUT^a^BBlH *

I fthfljpufl ftp m

<3§)ffkTfltettMtaigi8!

ffagimwwnMrfL

Apenann ffieqpnnfiniBtto aanftgi&BnB tepnafliEE temoi^
most produce them »they are kept in the oidmaiy course ofbnsmess or
must organize and label them to correspond to the categories in the demand.

(1) Avoiding Undue Burden or Expense; Sanctions. A patty or attorney
iCTpnnrihkiy isnkgandaerwcgasatpoemirafrtfrkereaMnslilc
fiPfflSBgid

IH M JMWBB

i «■§ i^awrHy m
fivpBBdDEBss^dbcteEBcaffy
tfhg
padbositgaa
m.
flftrkguJrntHiHly nuWnfliBiuHfl grim « mewaiuiftfly unJhfe
anr ffininwifr.

tol

arfii[|iiiiiaua_,Tfft«gBTmTfl,feB,iS«diriffli«<mt^w^«iwr£iy»»Tf fata^eSra?
tikiB
sooiS kssqeoiss am
sDDEthsB^-^sflncfli
nsdnfts

IEIkiitXmmidIfyStmm£5ifi9fmi3t£m^Tmdmm£im flhflp (BhwJft&m. TUbs
m

(2) Commendto Produce Materials or PermitInspection.
CA).^ipw«iflgAW Fiiaewiif A
soft appear jagepnEBiafi

dlBStt{8SDdEEB3

ribrifaiBnnfuB^y

■ cffln^mnacgn-Mdhip after tfhganftfflio^
tffaetfeffhmfh^ffiiitgc
(0 At any tune, on notice to the commanded person, the serving party
may move die court for the district where compliance is reqmred for an
or sHgncfioEL
m^ft^«i^grf^tTiTtyffTtri'rrtrifiif%rinfrr tmtf
«9
wiAii biiwB
.*]
•ai
W&ois
apmty^
gjr0rifflgflrittfHIJffIITORTgSptiMwg^ ffwi fflftll'JJ4?rhWlglg
(5) QntsfnEg or Modifying m&utputim.
On timetyomtk^dK court £v the dbtrict
ar tian^B^r • Culi|lnnHM

■flpMfifinc ere wan* amw^Aty

twfflffypp

Ot casspefl dscoPEsy nr jfar s proosetiwe
ijtfwjpmriinjr:
sfeawfeaflllhEB
salt
Ifft{haisfli™inEis
made, (he cuuit may nopitla.V’j. order djsuxuy from such sources ifthe
requesting party shows good cause, considering the limitations ofRule
2£(bX2XQ-The cool may specify conditions for the dBanexy.
crcsS-On

:<lf

qtrf ■wqjwwdfuim

(A)

v

enr-'j' wc •

nwmiii^flnrttuBJl.
(B) Objections. A person cxMUffwndcdto pikhnx ducumeats or tangible
things or to permit inspection may serve on the party or attorney designated
mtlmsriiporMavfiittranhjtrlkntoinsprrtTfi&copryiafc'
rfa* ^^■iSaic
fflhg.|»inr*firTr—flrftri
jyMUiiifann^tf gflwrffrBuara^tyitihwgiJ mrfjinnuflrfiwB an ffc^ Bin in m

COS^^BBBSS DS nSQBHfld

vyiZ

jprwije.ifcgiWBiy rfI'hitfUMijBy itiMwlwfiamrfim

orlo

jpanaBtlte

>

information in more than one form.
(D) Inaccessible Electronically Stored Information. The person

mnr-mKFrhaegr,

_____

SafinmitiTShm H&ilfHhdHJ. A fiftftnmn wVflfciBiiiiq^^riAjpiiHmiHwll iiiflnimtHlfiMn
anriWfflgltriimlfllUtBt.iii:|prih«lle^ril mr«dljtgff(tm]jiiilltoJfiiiiii gn:ltmriVji:^p«j)fnnn

.

(i) expressly make the claim; and
(ii) describe the nature ofthe withheld documents, communications, or ^
Uogiide
^a a eobobtUh^
neseafiqg ^sfanatfsai
fie
pbrikpii oriairttetlnf, sJ
Bdlrj|nnw.««»S^jWfS1>Ti» cflwmncd^iniiwIlW^]. erred*^niinflurBaflwiB.
tttifrfl^nffjjiTiiartfiHmiinittniiUJl^fftgrjpTmmTiniTOftriT^riftmrribimmTOiytnwtinl^Tirw^jjmrffgr

(hat received (he hifotaiabai ofthcctrim and <bc bass Ibrirt. AiSy being
notified, a party must promptly return, sequester, or destroy the specified
ordackecfte infrinmlion
izdbnofltiQOttdtqfcopkiitlas;
fWBnwMr ^nrafc.— iftm M' flh.
ftechnBiBdin^
■aftwwK>ffiBln>gf#pgj«Prf?y dllut ld*Aji ■! nPg^Swrie
finappgrft tfhe rtrf5mTi«tiwin nwtfernmril fta iflgt gnrmtff far ffWg> dfaftiSril
flanm||it|mTmp ycpa^ifpmfl %rr«
riytHtfiw1 teffdhggfbnm TQhc

^■^rSfiVpf fhi P|flg

ffVty gCnwm jjp

03Q requires disclosure ofprivileged or other protected matter, ifno
exception or waiver applies; or
(it) sobpscSs apeam to
sai^eettoaraffeziedbya
CB9
■orfmmuwim^tftff-eYnniift few Sfcedfatrotf mhiw^.minijjJSLiu. il' 5g mejjmiiidl
BBSflDSSrt, 4Qmwfli
iffhnwijiMiw^g

resolved.
Tie

BttaiiiecwfpffiHimrisstqsircd—S33drfto.afia*a
mcaetaqpta

wfto^&UHUSgj,
<mii||inn*iiTrt /arrgm flwrflgirnrgftrttfffl fhn lh

For access to sribpoeoa medals, see Fed. IL Civ- P-^45(^ Conaattee Note (2013>.

M)F Created with desk&DF PDF Creator X - Trial :: http://www.docudesh.comi

ZOOM! MEETING INVITATION
Subpoena to Trnmp Subpoena
Elizabeth Note is inviting you to a scheduled Zoom meeting.
Topic: Gilbert! vs. CDC, et al
Time: Mar 10, 202110:45 AM Eastern Time (OS and Canada)
Join Zoom Meeting
httPs://us02web.zoom.us/i/85856642032?pwd=QTa3eTN0RFViVUJJYUFDM0Z0
azFSQT09
Meeting ID: 858 5664 2032
Passcode: 800612
One tap mobile
+19292056099„85856642032#,„ *800612# US (New York)
£,rir*800612# US (Washington DC)
+13017158592^8
Hal by your location
+1 929 205 6099 US (New York)
+1 301 715 8592 US (Washington DC)
+1 312 626 6799 US (Chicago)
+1 669 900 6833 US (San Jose)
+1 253 215 8782 US (Tacoma)
+1 346 248 7799 US (Houston)
Meeting ID: 858 5664 2032
Passcode: 800612
Find your local number https://us02web.zoom.us/u/kb2Wd2ETwn

PDF generated by deskPDF Creator Trial - Get it at http://www.docudesk.com

UNITED STATES DISTRICT COURT
FOR CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
Civ. No.
JOSEPH D. GILBERT!, JR-, P-E-. an
Individual and Licensed Professional Engineer.
COMPLAINT

DEMAND FOR JURY TRIAL

Plaintiff
v.
CENTER OF DISEASE CONTROL (CDQ,
WORLD HEALTH' ORGANIZATION-PAN
AMERICAN HEALTH ORGANIZATION (WHOPAHO), SENATOR RICK SCOTT,
DEPARTMENT OF JUSTICE, UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF
COLUMBIA, US MIDDLE DISTRICT COURT
OF FLORIDA, US DISTRICT COURT OF
APPEALS 11th CIRCUIT, THIRTEENTH
JUDICIAL CIRCUIT COURT OF FLORIDA,
TWELFTH JUDICIAL CIRCUIT COURT OF
FLORIDA, SARASOTA CLERK OF COURT,
SEVENTEENTH JUDICIAL CIRCUIT COURT
OF FLORIDA, SECOND DISTRICT COURT OF
APPEALS FLORIDA, FLORIDA DEPARTMENT
OF LAW ENFORCEMENT, FLORIDA
DEPARTMENT OF HEALTH, FLORIDA
DEPARTMENT OF ENVIRONMENTAL
PROTECTION, DEPARTMENT OF
EDUCATION, PARKLAND HIGH SCHOOL,
BROWARD COUNTY SCHOOL BOARD,
MARK OBER, PAM BONDI, FLORIDA STATE
ATTORNEY ASHLEY MOODY,
HILLSBOROUGH COUNTY STATE
ATTORNEYS OFFICE, FLORIDA BOARD OF
2ERS, BROWARD COUNTY STATE
ATTORNEYS OFFICE, ATTORNEY
CHRISTOPHER SHAW, HILLSBOROUGH
COUNTY PUBLIC DEFENDERS OFFICE,
DEPARTMENT OF CORRECTIONS, 72
PARTNERS, LLC.
Defendants.

CIVTL RIGHTS VIOLATIONS. FRAUD ON THE COURTS. RACKETEER
INFLUENCED AND CORRUPT ORGANIZATION ACT t“RICO”I
1

Plaintiff JOSEPH D. GILBERTI, JR.. P.E., hereinafter “THE ENGINEER,” is an
Individual, filing far a complaint against DEFENDANTS or “Enterprise”, allege as follows:
NATURE OF THIS. ACTCON
This is a 42 U.S. Code § 1983 federal civil rights case under the First and Fourth
Amendments of the United States Constitution as applied to the States under the United States
Constitution’s Fourteenth Amendment for the Defendants’ individual and collective personal,
malicious, ami unlawful violations under color ofstale law of Plaintiffs1 individual ami collective
constitutional rights to fisc speech and protection against unreasonable search of P&ainliSP’s
bodies as well as state tort claims for civil conspiracy. See Gilberti vs Federal Reserve, et al.
headed to US Supreme Court for Racketeering by Florida Department of Justice, State and US
Judges, Florida Department of Law Enforcement, Florida Dept of Education & US Leaders
being paid by large foreign corporations such as but not limited to Israel Chemical LTD/Mosaic
Phosphate of Ftoraila hiding Gfohal Walter & Medicine Resources with EPA and Federal Reserve
Board/Central Banks. This Resource has reading never semi on Earth that affects Medicine and
NjAwnad Dafemse..
I*

or tokot

July T C>

C

I

AM

It wr*tt o * * yout MUjmtty
tl*#«
oy<?ss «MtfJ tli^f

Uir-* <*•♦»!*»#+ lirtir?. Omi
•tteretk. 2020.

i

tilt:

you

■ 'v7
•+■

•—*

4. X

s

<

J ^—

‘

-r~rr.

-■H
*

r~z
TLllt

(73
2

This mask has been on the $20bili since 2003 and is part of the same Smith-Mundt
Modification pattern used to subdue Engineer Gilbert! with various Terrorist attacks shown in
this conqikint and multiple filed related cases throughout Florida and Washington DC.
Defendants are working with U.S. Federal Reserve, EPA, FEMA, CDC, WHO,
Hollywood Producers, Israel Mosaic Phosphate, corrupt Judges. Court clerks, law-firms, Florida
leaders, EPA and foreign Terrorist to subdue Plaintiff who found a hidden underground Natural
resource in Medicine. Energy and Water Supply production and National Defense. Defendants
are working imi a ita^eteering Enterprise with Leaders, agencies and Land Develtopers tto destroy
water supply and Americans with higher rates of Cancers, Viruses and Diseases as well as
destroying die Environment. Fish & Wildlife, Tourism, Jobs and Macroeconomic growth in
Florida, America and abroad. This unique property has Geological indicators that show
America bow to find more iu day's aad create millioas of Jkibs, new UKdiciue and economic
sustainability.
Below is a diagram of major concerns by thousands of citizens who asked Plaintiff to be
the West Florida expert at Desoto County against this Enterprise and Mosaic Phosphate and
Plaintiff was approved for said expert to protect millions of Floridian and Americans from this
Enterprise.
Defendamfis conmniUed these unlawfid violations ofPSaimfliff’s constitutionall and state
rights undo* color of state law in bad faith and with malicious purpose in reckless, wanton, and
willful disregard of Plaintiff's human, safety, and property rights.
A Judiciary without honesty has little chance of executing its moral and constitutional
duties, no matter how many rules of ethics exist. This is especially ferae in America, where the
judiciary is afforded wide discretion. Every decision left up to the discretion of a judge—is a
potential opportunity for corruption. Today, oil, gas, minerals, drinking water and natural
resources and their entitlements are often decided by judges making decisions without the ability
3

to understand the long term engineering and infrastructure affects of hiding massive drinking
water resources of the health qualify. The Judges axe often influenced by local Corporations,
Law-firms and bribes if the stakes are so economically high in the region, no salary could
compare to the monetary corrupt bribes or offers.

‘utxie c^oos©(^g
vk§> wjm
[Ulflf(0'idti
^CfD1

ftnufln

j|Wit
i.rti xftk^jy *»M'

<i

1

irt ^

,T' *.
' .nil-t iili, i>ibt(h
• itf'l > illl 'nijUiir

r\

as

(

S©

1 ""'Ml!
.V
,frtOoS
V

■t

& -■■'UJ.

M i

‘S>

S*

i

/.V

,

vw- •*•

1;

S:c;-

VV
rr

M£*-r

*7

HV

‘fJJliU

/

rpQSCL©

<§&

• ^N H;K5JfyOnjR?'i *
. ®SOi5!Bj5 WmjU^SY

i

*> v

'*V dO
} Jri JLU* U vt»*5 i . dtijtj?

y 11!if Q

nt. ^ tJLv>*'

v
7 Qt-?1 ^

iq «£r '

/l £7*^ ^*f
I** t*1!
Ort^*

\t :*..**+

:C2rr-

>«*«* Antr***** «

f»fN ft

™x* ga^LS M'7>t
wibtywFv&--c4-pbuuir.

iPmisfzwfc

^nirtlravrfl CCqex

^iHWRniina ® aaiaSj} -. _

--*■

dCWJfci

Q um«can>Jlmro
Ijut' >*> «lu:iy.u -rk <u*ii

^

'iTttc z<~i'*rs:*2Zh- ~ J

1

,hii>u.u.iiv

-

^■VviU'-AVp 4>

ir.' y-*

sr‘

CHARiOl1 (

'In Ifc.- j 'l.*a-U

if is'j^juijjV)

# [RxuitniW' Uuuiu , .nv
'•

\

'(UIOI l> .1.11
M Jj-fJL ■>
1‘ ? iJU.H«v

.11.11

.11 . .,.

tu] 'himi'v

’/

Figure 1 - Israel Chemical LTD/Mosaic destroy massive surface rivers used for Raw Drinking
Walter Resources, Economy, Fi^h & WMliifie alt West FHorida Kms wilffli Pfiosphate nsmmg with
rtefeimifennrfls; airmrt Agemritps, mm Rgarkefigerrmni^ Pm<iiFirj[wrisg-. fian ffiitt flsmneir Carterrsi wMk Timarfimt Warfigrr vs, fnftihgrrfiri

Endless Alkaline spring water.

4

The case involves the Defendants in a massive Enterprise which consist of Judicial
enrii Judges, State attorneys, public defenders. Police officers. Utility directors, water and
health agencies, hard money loan sharks, local law-firms and developers who have teamed up
against TI IE ENGINEER to steal a hidden underground resource which more valuable that Gold.
am am dht to Mfle it and its Itowfedge to find nmasre like it from THE AMERICAN PEOPLE;
and keep cancer and diseases rising in the region from Water supply being treated from polluted
risers and corporate dumping at theTaps.
By this suit, Plaintiff seeks federal district court review of the federal and Florida
constitutionality of Defendants' act ions for both on their lace and as applied, which:
(i)

Deny an impartial tribunal;

(ii)

Violate United Stales Code. Ttffe 4§§I0I and 102;

(iii)

Violate Florida Statute §876.05(1)

(IV)

CRIMES OF GENOCIDE/EI5GEMCS
General Assembly resolution 260A(lll) of 9 December 1940 Entry
12 January 1951, in accordance with article XtIt

force:

Having comsinfeined the declaration matSe. by the General Assembly ofthe United Marions
in its resolution 96 (I) dated 11 December 1946 that genocide is a crime under
ntternatgonal law7, contrary to the spirit and aims ofthe United Nations and condemned by
the civilized world, Recognizing that at all periods of history genocide has inflicted great
losses on humanity, and being convinced that, in order to liberate mankind from such an
©drams ssaswinge, i

co-operatism is rapnred, Hereby agree as inaremaier

provided:
Article 1
The Contracting Parties confirm that genocide, whether committed in time of peace or
in time of war, is a crime under international law which they undertake to prevent and
to punish.

Article II
In the pisnt Comeflion. genocide

any of the following acts comnied with

intent to destroy, in whole or in part, a national, ethnical, racial or religious group, as
such:
(a) KUlmg ranemters offline group;
(b) Causing serious bodily or mental harm to members of the group;
(c) Deliberately inflicting on the gnsap conditions of life calculated to Baring about its
physical destruction in whole or in part;
(d) Imposing measures intended to prevent births within the group:
(e) FemciMy transferring cMMra ©flfee gj©®pto asMsfflrer group.
Article III
The fo lowing acts shaM fee punishable:
(a) Genocide;
(b) Conspiracy to commit genocide:
(c) Direct and public imeitememt to commit gemodle"
(d) Attempt to commit genocide;
(e) Cotmpfcity in genocide.
THE ENGINEER brings this action against DEFENDANTS for a Violation of RICO, 18
U.&CL § 1961-1968, et seq (a), (b), (c) and (d). THE ENGINEER seeks damages from
DEMANDANTS wlto are working in a massive Enterprise tied to water soppily eugenics across
Florida, USA and the World with the Work! Health Organization in MOU agreements with the
Etnmnsmental Protection Agency. EDEP in Tallahassee at die Florida Marjorie Storaeman
Douglas State Revolving Fund, 2001-2010 Florida Forever Trust Funds, ESLAPP in Sarasota
Florida. Globa! Cooperative Agreements of combined Environmental and Global Healthcare
6

sustainability crimes by essentially hiding and/or stealing secret underground critical National
Defense Resources of ‘Blue Gold”____or ready to drink Alkaline Sprh^r Water fiomEarth not
Manmade.
The Defendants with other Racketeering Enterprises are manipulating the Department of
E • in*!! ■«! and Courtroom Judges. Police. Fire and University personal and systems to subdue
Appellant timed with civil cases, permitting, investment proposals to hide critical a unique
drinking water and resource 2000ft below the plaintiffs Sarasota land, verified by third party
oomsBsfantts.

This unique resource was hidden 50yrs by NASA and EPA, to stall new energy
production resources and new science to depopulate Humanity, increase costs, pollutions, and
attack THE ENGINEER from exposing the knowledge and resource to THE PEOPLE of the
United States of American and Florida: preventing his ability to Due process in courtrooms.
taking” Ms I®, 2nd1, 4tft,T

<?“!, 8* and 14tfh Constitutional Amendments with nMifttipfe Jiwdlges ha

multiple jurisdictions working together to hide the US Resource for foreign corps like Israel
Chemical UID, Mosaic Phosphate and more: retroactive with the unique resource discovery . A
full blown attack on the Engineer, his clients, his family, children, bank accounts, reputation and
business has been taking place continuously7 from 2011 to present time, w ith lake AR-15 emails

Defendants are attacking a National Security resource and future Blue Gold pipeline
project that produces millions in profits per day. While damaging millions of US Citizens with
lower level of service water supply from poor raw drinking water resources that are heavily
treated with chemicals vs. natural endless alkaline spring water causing higher Cancer Rates at
doe home and business taps, bottling plants, parks, schools, and more. While tacneash* the
possibilities of Viruses like Zika and Coronavirus, hiding answers to Vaccines, medicine
solutions, energy solutions, and new technologies by hiding secret underground critical US
7

Resources such as this resource with never seen endless new Water mixtures that are unique to
Human heafcti
■TlTWTSnTCTrON AND VEIV1JK
Plaintiffs bring this action pursuant 42 U.S.C. § 1983 for violat ions of civil rights under
HBde Rrstt, Foorntflli), and Fourfeesrih Amendments to foe United States Constitution.
1.

This Court has subject-matter jurisdiction over this matter pursuant to 28 U.S.C.

§ 031 (federal question) and 28 ILS.C. § 1343(a)(3) (civil rotate); 28 U.S.C. § 1367 provides
supplemental jurisdiction over the state law tort claims that arose from the same common nuclei
of facts.
2.

JiuirfediHartM ©fthis Court es invoked pursiiiiasffit to (i) Article III ©ftine Orated Slates

Constitution, (ii) the provisions of 28 U.S.C. §1331, §1343(aX3) and (4), §2201 and §2202 and
42 U.S.C. §1983, and (iii) the provisions of 28 U-SdC. §1367.
3.

Venue is proper pursuant to 28 U.S.C. § 1391.

4.

At all material times. Defendants committed these unlawful violations under color

©ffstole law m tali frith and with malicious purpose in neckfess, wanton, and wMSfol dismqgandl ©ff
Plaintiffs’ human, safety, and property rights.
5.

These constitutional law violations are "capable of repetition, jet evading

review.” Roe v. Wade, 410 U.S. 113, 125 (1973) (citing Southern Pacific Terminal Co. v. ICC,
219 U. S. 498, 515 (1911), Moore v. Ogihie, 394 U. S. 814, 816 (1969), Carroll v. Princess
Jbnm, 393 XL S. 175, ITU-179 (1968), United States v. W. T. Grant Co, 345 XL S. 629,632-633
(1953)).
6.

THE

EX was kidnapped timed with the FDEP SRF Marjory Stanenan

Douglas funding application just 17days prior to the Marjory Stoneman Douglas Shooting in
Broward where 17 were shot and 17 wounded in game tied to Smith-Mundt act where
EMDyvrood in Los Angeles setts stories to Government to sells Manufactured news for tiberr
8

Propaganda agenda to attack other nations and now America since its Congressional approval
under Obama m 2012 via tie ILR. 5736 The Smith-Mundf: Modernization Atit of 2012, initiated
days after our World Resource find by Tampa Central command and this Florida Enterprise of
Terrorist civil servants and Developers tied to huge Corporations like Walt Disney owners,
SemikiKste Tribe Casmtss*, Federal Reserve Bank and essmipt Judges in land grabs and cdbersibn
on tax base grants for their Enterprise which includes a front called 72 Partners LLC and BFSL
HimMinniffys LLC.
PARTIES
PLAINTIFF
7.

Plaintiff, Joseph D. Gilberts, Jr_, PX hereinafter “PlainlifF’ (aka THE

ENGINEER) is a Professional Licensed Civil Engineer and Land Consultant located in Lee
County, Florida with a mailing zip code of33931. whose President, of LandTech Design Group,
Inc. with access to land in Sarasota County with a critical underground Aquifer with medicine
changing readings that are capable of delivering Ant ioxidant Spring water supply to over
!®miilfo)in) taps from Tampa to Miami

See Plaintiff’s Engineering, Consulting and

wMstkb&ovving website at https://gilbertibluegold.com/. Plahtiff is a property owner who has
access to a secret hidden endless underground spring river approximately 2000ft below his
Ranch, tied to a much deeper Global vast Ocean from geological and water quality indicators
shown in public record engineer reports, permit petitions, consultant presentations and third party
Untesuls.
DEFENDANTS
8.

Center of Disease Control (CDC) - Centers for Disease Control and Invention.

1600 Clifton Road, Atlanta, GA 30329 - The CDC has hidden this resource with the Enterprise
since the first permk submittals in 2012 and 2013. They regulate pathogens in Water supply and

9

Federal Reserve, Media and this Racketeering Enterprise of Florida civil servants and more who
arc hiding this World Medicine production for the Rich to kill the Poor and Middle Class with
arsenic treated waters for years. They all knew since 1991 and killed millions ofPeople and now
the mask game.
9.

World Health Organization - Fa* Americas Health Organization (WHO-

PAHO) - The World Health Organization works to promote Clean Water help protect the Health
and Welfare of Humanity with the EPA and other Nations. The EPA and WHO-PAHO have
worked together to hide this Global Water and Thermodynamic knowledge from Humanity to
create a health crisis and unnccdcd Vaccines with Bill Gate Foundation. They both have worked
together with Defendants and Florida Leaders to hide this Resource and Globa! Waller
knowledge undo: Plaintiff’s land for years with Courts, Judges, Police, Leaders, Media and EPA.
10. Florida Department of Environmental Protection (FDEP) — Adopted in 1983
with later revisions of Rules for Water supply and Resource permitting regulations, pursuant to
die EPA Clean Waller Act of 1974. Critical terrorism acts arc timed with FDEP emails within
tarns, santaraitdlak within days, with aril servants as witnesses within the State of Florida
available^ as FDEP is hiding endless spring water to millions oftaps for decades causing cancer
and disease rate increases. Website can be found at https://floridadep.gov/
11. Thirteenth Judicial Circuit, Hillsborough County. Hillsborough County State
attorneys office, with Public Defenders office worked with Judges to and falsified police reports
to

subdue the

Engineer timed

with

land

cases

in

other court jurisdictions.

https://www.fliudl3.org/
12. Tvdfik Judicial Circuit, Sarasota County. Hillsborough County Judges worked
with Sarasota County clerks and other court Jurisdictions to hide trial notifications, subdue the
ENGINEER, while harboring the timed Terrorist acts filed on record and falsified police reports
to with land cases, illegal mortgages, rotating judges, retired judges for Trials, to hide the US
10

Resance and timed Terrorism that subdued tie Engineer anti stalled tie cases and projects.
https://vyww.iudl2.flcourts.org/
13. flailed States District Coart for the District of Colombia, Washington DC.
Judge Ketanji Brown Jackson avoided all discovery, harbored Terrorism acts timed with attacks
cm US Resource with Lawyers, Media and School Board propaganda Id subdue tie Engineer
flamed with land cases in other court jurisdictions. All other courts and law-firms are piggy
hacking on Ibis Order that was another attack on THE
roiifcms of Ftoridians, their children in gpowih,

#, tie US Resource and
lies this resource provides.

https://www.dcd.uscourts.gov/
14. 72 Partners LIjC is a Florida Limited Liability Corporation gronp of west Fkurida
bankers, real estate and appraisers consisting of Lee PaJlardy, Thomas Howze, Kenneth Harrison
andLawrence Hall or arc also named individually «m tie complamL The website can be found at
https://www.leepallardvinc.com/. Kenneth Harrison of 72 Partners LHC leases land from
Southwest Florida Water Management District at the Peace River RV Griffin Reserve since
1974, sits on the Babcock Ranch board where both entities have targeted THE ENGINEERS
land and his clients land Daughtrev for decades with the Lisa and Kimberly Carlton (Sarasota
Chief Judge), at Canton Ranch where tie Carton Walter Treatment Plant exists next to this
resource. Kenneth Harrison has been a neighbor of this land for decades and knew of the US
Resource before THE ENGINEER and the Hurricane Charlie disaster recovery funds installing
RV Griffin, 6 billion gallon open to the sky Reservoir in Desoto County.
IV. FACTUAL ALLEGATIONS
14.

Plaintiff is located and does business within the State ofFlorida and United States

ofAmerica.
15.

Defendants

located and do business within tile State of Florida and United

States of America.
11

All defendants are State actors, and as such, the United States Constitution

16.

governs their individual and collective actions when acting on Tax paver behalf to protect the
public.
17.

Defendants formal and informal policies, written or unwritten, allowed,

39! or enabled Defendants to vribMe Plaintiffis’ individual asmstMMionaJ rigjhfe and
conspire to commit these constitutional violations.
This issue is a matter of great public concern. A Global hidden underground

18.

Drinking Water, new Medicine and Energy Resource has been found and is being attacked by a
pool of Judges, Agency personnel. Law Finns and Court Circuits in West Florida and
Washington DC to Mde this critical National Defense Resource from America for foreign owned
corporations infiltrating Florida Politicians, having a great impact upon Florida students, their
fannies, and Florida’s citizenry.
19.

Defendants retaliated against Plaintiffwho was exercising his free speech rights

when Defendants in a Racketeering Enterprise to sell bottling, Cancer Centers and
Seal medicine due to Low Level of Service drinking water supply at toe tap front very

limi*!tWw,Hl|H

low level of Service RAW WATER RESOURCES. Defendants attacked his land in Sarasota,
Ms family, Ms clients and projects when Plaintiff was whistleblowing the US Resource with
permitting submittals, mass emails, and social media posts in an effort ofRedress of Grievance.
20.

Defendants illegally with falsified police reports involving AR-15 death threats to

Pfaicmrirfflis Is1, JTxS.

5®", 6s", 8®" and 14flh Amendment rights under the United States

Constitution.
21.

Plaintiffs continued to suffer Defendants' individual and collective retaliation

for voicing their concerns over this unconstitutional forced low level of service of water supply
causing higher cancer rales, diseases and viruses to millions ofAmericans in the West and South

12

22.

These deprivations under color of state law are actionable under and may be

redressed by 42 ULS.C. §1983. Plaintiffs will seek their attorneys' fees and costs under 42
U.S.C. §1988 ifand when they prevail.
V. COUNT1 - CTV11. BIGHTS ALLEGATIONS
23. Plaintiff sot files,, plains, and readings with email copies to several recipients, local
agencies, County attorneys, media and consultants, to expose this World hidden underground
Resource by attaining
24.

i rn

■ency. and properly exercising his First Amendment rights.

Plaintiffs civil rights, freedom, projects, incomes were attacked by Defendants,

their court influences. Judges, local police, law firms with fake police reports and time terrorist
aWadks to raise horafc timed with civil land cases to subdue him. These court docket games with
software turnover in other county circuits, timed with Judges and law-firms, who are all
harboring the terrorism and hiding access to secret underground endless Oceans of unique spring
to millions ofTaps and Earth Science critical to Humanity. See Timeline ofEvents below:
CONFIDENTIAL TIMELINE OF FLORIDA TERRORIST ACTS BY CIVIL
servants Awn i .papers

TIMELINE CONFIDENTIAL AND SUBMITTED SEPERATELY IN CONFIDENCE
FOR THE COURT IN A PRIVATE VAULT AND HAS BEEN COPIED TO PRESIDENT
TRUMP’S OFFICE, ATTORENEY GENERAL BARR AND CONGRESS DUE TO
CORROLPT FLORIDA AND US LEADERS. JUDGES, ENGINEERING FIRMS, CIVIL
SERVANTS AND LAWYER NAMES INVOLVED IN US TERRORISM AND
EUGENICS OPERATION WITH FEDERAL RESERVE BANKS, CDC, EPA, NASA,
WORLD HEALTH ORGANIZATION, FEMA AND CORPORATE LEADERS AND
DRINKING WATER-ENVIROMENTAL FUNDING AGENCY BOARDS
25.

Below is an rough indicator of the unbelievable corruption that took place in front

ofeveryone while they watched in fcar just like the masks for the FAKE CORONV1RUS
PANDEMIC by the same group and more.
2011 year
June - hired Greenberg Truong through help ofScott Freyre who was going to
help us geJtfimdmgfrom hard money note that was stealing the land for pennies
with Foley Lardner attorneys who are head ofFlorida Waterforum
13

August - fired Greenberg due to friends 72partners taking note 12 days into
litigation and the fact they are Israel Mosaic Phosphates chief council doing
Political miming compacts with Gov Scott and west Florida countiesfrom Sierra
vs ACOE IMgattmm for phosphate names from Tampa to Lee Cmm/ty. Sarasota
never signed due to Lee county for 57million as I have the only mining permit in
phosphate district in Sarasota with deep well, two essentials for fertiliser plant
Mosaic is largest phosphate andpotash carp, in world controllingfarming with
Monsanto mod allfoodproduction m World.

2012 year
April - Found water at deep well and sent plan showing spring water to Peace
Miner WFP and RV Griffin reservoir to att. leaders in mass email Ross Morton of
SWFWMD ombudsman responded 52minutes later to block staff contact.
July 4th Holiday - Arrestedfor cyberstalking or really 1st amendment rights for
whistleblowing water resource with plans next, to a Scounty polluted Peace River
Manasota water plant in Desoto county pumping to Sarasota, Charlotte,
Manatee, Desoto and now Lee. Wictims were three Greenberg Trmmg Lawyers,
Dave Weinstein, Vin Marchetti and Don Crawford. Vin was friends with Scott
Freyre ami used to workfor Foley Lardner. Dave Weinstein is chief council for
Mosaic for decades! Mayor conflict against USA under attack by foreign
carpmattimm with Nestle and,
August - submitted $10,300 application and fee to FDEP in Sarasota and Ft
Myersfor Pipeline andfiltration to bring millions Alkaline Mineral spring water
to region, still didn’t realize about the red value and uniqueness of underground
RIVER and meteor stiff.
Presented to Peace River on Aug 1st on aquifer with spring water to four county
commission. Public record.
December - Florida pass HB1099 new cyberstalking taws to felony issues while
Greenberg changes windows to bullet proof with Booed ofEngineers to make me
look like a terrorist
2013 year
Mimh 27prssem^m Chy ofMorth. Part, m Sarasota whh kids an spring water to
taps in six months construction as they get is first as they are six miles away, sent
plans to Sarasota and Venice churches and all hospitals.
April 3rd - Jim Murray ofAmps Well Maintenance comes to site and says emails
bdmg deleted sffhismmipMer infmnt ofMs eyes wMmrn seconds ofmm&mgesmml
ofwater readings and story. He said cleanest water on earth ever seen over 3 of
world after drilling Oil SOyrs. says we are next to a titledplatform from Yucatan
meteor impact
14

April 15-1 wrote hypothesis, emailed FDEP in Leon County Tallahassee FDLE
Torch run with mass email at 10:54 am and Boston Bomb blows 5hrs later and
my $500 bond for a misdemeanor with, Greenberg Lawyers skyrockets to
$3§§,§M and summnded by secret service and hdmspters at HMMmnmgju
County government building with Secret Service flying all over the building with a
huge ACT by Cops, Judges and Hillsborough County staff, leaders and Pam
Bondi.
2014 to 2020 years
Detailed in Vault of timed Terrorism with FDEP funding on Parkland shooting
Cousin Cory Gdberti setup by Broward Cops and State Attorney with actual ARdharges, Mddm by the news within months of Parkland shooting while THE
ENGINEER is attacked with FABRICATED AR-15 EMAILS by the Hillsborough
S4ate Attorneys Mark Ober. Pam Bondi, Ashley Moody and Andrew Warren.
Forced to take a Guilty plea just to save the land control to get. the permitting
after being kidnappedfor the 23 thne by Tampa and Lee County corrupt Judges,
Cops and more
THE ENGINEERS children were attacked by School teachers and chocked to scare his
family away and create local dissention andfear with Cops and corrupt Florida leaders
and dwd servants.
Yet not one Leader, Engineer orperson will dare test this water and its capacity that now
has a 9-mile transmission FDEP Permitfinalizing with Jon Iglehart the Director in Fort
Myers, who is a witness with meaty others ofthis US TREASON by hundreds ofLeaders,
Judges, Cops, Media groups Large developers, Bottling Corps, Big Pharma groups,
General Ekdtrvc, Dow> Cbemmd,\ Mosaic Phosphate, Monsanto seed, Hospital Boards
and Lawyers.

Why is this Mask oh the $20biIIfor thepost / 7yrs bidden at the M2* RNC and DISC by
all Leaders, Federal Reserve and Mediajust like this World Resource and knowledge?

25.

Plaintiff found the secret underground resource and started whistleblowing and

permitting the pipeline, resource and project, suddenly falsified threats by attorneys and police
started with cyberstalking arrest tied to Greenberg Traurig Law, Dave Weinstein, chief council
for Mosaic Phosphate next door in the Phosphate district, Mr. Weinstein was fired from the
project dune to eomfett eases wMi Mosaic, Siena vs Fort Meade^ li^DfetrictcofflitsainidSairasffita
courts due to the resource and phosphate mining permits owned by THE ENGINEER and
political mining compacts in west Florida.
15

26.

Plaintiff was illegally subdued with bond hikes using new cyberstalking laws,

timed with civil and county and court circuits away to stop the exposure and permkting.
27.

Plaintiff as a Professional Licensed Civil engineer permitted the resource and

pipeline connections adjacent to a 5 County regional Water Supply infrastructure while
wiiMUlbwinig tire OocatHm, dtesnaidloistks ©f the underground m«r and is aUiy to produce
unique spring water to over IQmillion taps from West Florida to South Florida, solving Florida
Water Wars. This effort was attended for a vast investigation to avoid emails to select
recipients- many of which were public officials-with the specific goal of informing these
officials of an illegal political conspiracy, and persuading them to enforce laws w ithin their
jjgmsdjKrtim Ttareftne, Plaintiff is exercising Ms constitutional right to petition the government
for a redress of grievances.
The right to petition the government for a redress of grievances is one such
annMiiidliomly protected activity, and me ®ff tfflne
pnarikmns Htnties
"safeguarded by the Bill ofRights." United Mine Workers of Am., Dist. 12 v.
Illinois State Bar Ass'n, 389 U.S. 217, 222, 19 L. Ed. 2d 426, 88 S. Ct 353
(1967). The history’ of the right to petition for the redress of grievances is
ancient, stretching back in time to before the IMagna Carta, see AD. Bedell
Wholesale Col. Inc. v. Philip Montis Inc, 263 F3d 239, 252 Pod Or. 2001),
to a petition by English leaders in 1013 to "Aethelred the Unready.'" J
Norman B. Smith, "Shall Make No Law Abridging ... An Analysis of the
Neglected, but Nearly Absolute, Right of Petition, 54 U. ON. L. REV. 1153,
1154 (1986). The right to petition has evolved to its current place in both the
federal and Florida, constitutions, which protect the right of the people to
petition the government for redress ofgrievances. SeeULS. Const, amend. I.;
Art. I, § 5, Fla. Const.
THE ENGINHTCSISFEI5CH IS HtOIECTED BY THE RrSTAMENDMENnr.^iCAIISaE IT IS POLITICAL
GAMATTERWPMBUCCOWiaEIBli—TAK^BYlBEDEPEWIIMlNlTSBNlAaMgtOlPT
i3L ADOR]
RACKETEERING ENTERPRISE

28.

The First Amendment to the United States Constitution guarantees freedom of

speech, the right to peacefully assemble, and the right to petition the government- Those rights
are protected from infringement by state governments by the Due Process Clause of the
Fourteenth Amendment to the United States Const itution. Further, under Article 1, Section 4, of
ttteCnmMftiDifi

©ftthe State ©fFtaitfia, citizens aue guaranteed freedom ©fspeech.
16

29.

The First Amendment protects speech even when its subject or manner of

expression is uncomfortable and challenges conventional religious belieIs. political attitudes or
standards of good taste. United States v. Stevens. 130 S.Ct. 1577, 1585 (2010). Specifically,
Fast Amendment jurisprudence has time and time agpin demonstrated that political and religious
imssL. One, such ease is Cantwell v. C.'tin

a 31©

U.S. 296, 310 (1940), in which the U.S. Supreme Court overturned the conviction of three
individuals for passing out religious leaflets in violation of a Connecticut statute that made it a
crime to solicit and breach the peace:
In the realm of religious faith, and that of political
belief, sharp differences arise. In both field the tents of
To persuade others to his own point of view, the
leader, as we know, at times, resorts to exaggeration,
to v ilification of men who have been, or are,
pno*inert in etsunnch or state, and e^en to take
in the light of history, that, in spite ofthe probability
of excesses and abuses, these liberties are, in the long
view, essential to enlightened opinion and right
conduct on the part of the citizens of a democracy.
30.

The Supreme Court has consistently classified emotionally distressing or

outrageous speech as protected, especially when that speech touches on matters of political,
religikMiis or public concern. The Supreme Court has said that this is because In public debate our
own citizens must tolerate insulting, and even outrageous, speech in order to provide adequate
breathing space to the : freedoms protected by the First Amendment." Boos v. Barry. 485 U.S.
312, 322 (1988). Emotionally distressing speech will be entitled to special protection under die
First Amendment, when expressed at a public place on a matter of public concern; such speech
cannot be restricted simply because it is upsetting or arouses contempt. Snyder v. Phelps, 131
S.Ct. 1207,1219(2011).
31.

Uncomfortable expression touching on political or religious matters sent through

emnmll is espaly protected under die First Amendment as there is "no basis for qualifying the
17

level of First Amendment scrutiny that should be applied to online speech." Reno v. Am. Civil
Liberties Onion, 521 U.S. 844. 870119971. Despite the challenges of applying the Constitution
to ever-advancing technology, basic principles of freedom of speech and press, like the First
Amendment’s

1, do not vary when a new and different medium for communication

M3HHMM I

appears."' Brown v. Ertlmlt March. AssTn, 131 S.0L 2729, 2733 (2011). PMiiiffF was exposing
the hidden US Resource with a mass addy technique using select agency and local influence,
since Plaintiff'knows who is supposed to utilize a resource of regional or even Global Health
importance.
32.

Thefiluri/iii

ntal importance ofthe free flow of ideas and opinions on matters of
s, even where speech includles

jwnfofe ©mBDsnm is the core of the First A

vehement caustic and sometimes unpleasantly sharp attacks. New York Times Co. v. Sullivan.
376 U.S. 254, 271 (1964). Surely, the government's interest in preventing die use of electronic
communications to inflict emotional distress would still undoubtedly be furthered even if some
State statute did not apply to the type of discourse the Plaintiff may or may not of engaged inpoMcal speeds ms matters of public: concern, aimed at alerting government officials, and
exposing wrongdoers.

cniMT it - fRAfin om fnimris atucatkms
33.

Defendants worked between Judicial circuits in a select Enterprise of Judges, civil

servants to time dockets on both illegal civil foreclosure cases and criminal cases, in an effort to
subdue THE ENGINEER in Hillsborough County courts and expedite illegal trials to steal the
land and hide the secret underground critical health resource.
34.

e proving THE E1MGENIEER was setup

Bdbw is a copy of email con

I 'V

and kidnapped by Hillsborough County District 13 staff (with help of Lee County and Sarasota
County Dist 12 and 20, as well as Broward County District 17) where Public Defender Chris
Shaw, the entire State Attorneys office, Mark Ober, Andrew Warren, Pam Bondi and Judges
18

during the 2016 Election pulled a hike arrest to subdue THE ENGINEER when land cases were
up in Middle District. 11 ^ District Court ofApjsak and Sarasota Courts.
35.

The Enterprise worked with Cops, Media, Pulse Bar, Commissioners, Hospital

boards and these lawyers. Judges and police to attack America. They filled out fake AR-15
afeaflfln threats on Pulse bar week. Chris Shaw mss the Public Defender few the Plaintiff for the
Boston Bomb bond hike on April 15,2013 for Mosaic chief council case with Dave Weinstein at
Greenberg Traurig di

36.

I

i two day before trial.

l"'

Attorney Chris Shaw is an arch Criminal with the Enterprise and Judges on the

payroll ofthe EiUeTprise m with the DEFENDANTS. See exhibit below which ties to an entire
ca$e(s) oflies to Attack the PHamtif^ his land, America and MUD millions with Cancer Rates at the
Tap in a major Cancer cluster ofAmcrica in retired West Florida.

rmn Cwtiwli* Sntiih *iu£tz.
a«tt* (W4/1S 3 33 r»M law
fo 4Hri*ini» oib«m - urf.w-"rii:
* 4PW TnclUMV 0#II

T*rr
OO)

——Onpinul
f-»o»M McAtfkowHlu. Rot'xsrt 1
st*- -v’ r" •**"*■*"
Ount ^MCJ4V August Jt, 20 16 i li«» PM
t^rrr l_m '<*
To Cuticho
* •
_ _
Outlet **W Zc*ct«ary ti€r*f
MtlMCtwel i« ttm r«^K)rt w rtt<*n tjy UCt
B«N
eufnputMi Ujoi «H«inocin Oui ft
a*x*ni <rt ovw* «n liuui
«fr«©M tHIt COS^KJ (>Ot f*CK* *t

AadfMorwIty, M' T7hai w tMOOntit in lite
Ituoupli it Mttwmjitinti U» finer ttvw

TfV»rit* yon.
HolMtrl f MtMwkOwtiW
A**t*UiHt.
AttoiiHiv
deputy 0*>‘of ©r P««ony Division B

<ai9) 2?*- !Tar

Proof no AR-15 threat was found but Judge Wolfe and State attorney forced plea to get to
Sarasota case after 6monlhs ofTorture and confinement
FAKE POLICE REPORTS WITH AR-15 TIMED WITH PULSE BAR SHOOTING BY
19

HILLSBOROUGH COUNTY DISTRICT 13
Figure
37.

Ckmpare U-SL w„ Throckmorton, 98 U-Sl 61, 25 L-Ed 93 (187S)E, Hud-Alias

Glass Co. v. Hartford Empire Co^ 64S. CL 997 (1944); Dcajanjok v. Fdiwslgr, 10 F. 3d
330 at 352 (6th Or 1993)
38.

A cause of action for fraud on the court may be brought at any time, and any

order, judgment or decree, obtained by fraud upon the court may be recalled and set aside at any
time, whether entered in a civil or criminal case. See, State v. Booker, 314 So. 2d 136 (Fla.
1975),

39.

Judges and attorneys are officers of the Court. A State judge is a state judicial

officer, paid by the stale to act impartially7 and lawfully. A federal judge is a federal judicial
officer, paM % the federal gaTrammsnt to

innpartMIly and DawfMlly. State and federal

attorneys fell into the same general category7 and must abide by the rales. A judge is not
the mart. People v. Azjie, 88 IlLAppJd 477418 IS>IL2d 626 (1988).
40.

In Bollock v. United states, 763

F.2d

1115,

1121

(18th

Cir.

1985), the court stated “Fraud upon the court is fraud which is directed to the judicial machinery
itself and is not fraud between the parties or fraudulent documents, false statements or
perjury.. .where a judge has not performed his/her judicial fiinction — thus where the impartial
functions of the court have been directly corrupted.”
41. “Frand upon the court” has been defined by the 7th Circuit Court of Appeals to
“embrace that species of fraud which does, or attempts to, defile the court itself or is
a fraud perpetrated by officers of the court so that the judicial machinery cannot perform in the
usual manner it impartial tasks of adjudging cases that are presented for adjudication/1
42. Kenner v C.I.R., 387 F.3d 689(1968); 7 Moore’s Federal Practice, 2d ed., p. 512,
60:23. The 7th Circuit further staled “a decision produced by fraud upon the courts not in
essence a decision at aR and never becomes ftnaL”

43. “Fraud upon the court” makes void the orders and judgments of that court. It is also
dear

well-settled that any attempt to commit ‘‘Trand upon die court” vitiates the entire

proceeding. The People of the State of Illinois v. Fred E. Sterling, 35713I.354;192 N.E. 229
(1934) (“The maxim that fraud vitiates every transaction into which fit enters applies to
jpdigmraanfis ats wel as to asmtracts and otflaer tomsadltons.”); In me Village ©fWiltowSroak, 37IJU.
App.2d 393 (1962) (“It is axiomatic that fraud vitiates everything.”).
44.

He Following Stale and Federal

in Florida, Georgia and Washington have

knowledge of the timeline and hidden US and Global Drinking Water Resource, knowledge and
crimes of Genocide/Eugenics in IIS potable water supply vs Alkaline filtered spring water
supply.
US Supreme Court case:18-l 110 Cecil Daughtrey, et ux., vs Rivera
US Federal Count
DstocttrfCoiuiMiihafflcaisE:

Gilberti vs Federal Reserve^ dLal

Florida US Middle Dist case:

9:13-bk-14831-FMD Daughtrey vs Rivera
9:19-ap-00104-FMD Gilberti vs Rivera, eL al»

Georgia 11‘‘ Dist case:

2:15-cv-35-Ftm-29 Daughtrey vs Rivera

Sarasota Cases:

2011 CA 004209 NC BSFL Holdings vs Daughtrey
2015 CA 006544MC Gilberti vs 72 Partners LLC
2016 CA 000205 TNRC 72 Farinas vs Ice Gilberti
12-CM-011299-A Stare of Florida vs Joe Gilberti
13-DR-006408 David Weinstein vs Joe Gilberti
13-DR-007061 Vincent \1archatti vs Joe Gilberti

Hillsborough Cases:

13-CM-0O827&-A State of Florida vs Joe Gilberti
16-CF-010976-A State of Florida vs Joe Gilberti
18-CF-004829-A State of Florida vs Joe Gilberti
18-CF-005038-A Stale of Honda vs Joe Gilberti
Broward County Cases: CAGE 18-008568 Borges vs Cruz
CACE 18-009607 Pollack vs Cruz
18001958CF10A State of Florida vs Cruz
21

17002130CF10A State of Florida vs Cory Gilbert!
19-005019 Israel vs Desantis
Florida DOAH Cases:

Ffaida Board ofBog Case:

17-003257PL -Fla Board of Engineers vs Gilbert!
18-003276 - Polk Regional vs Peace River-Swfwmd
2016-029320—Board ofEngineers vs Joe Gilbert!

RICO ACTION ALLEGATIONS
PIABiiTlFPS’ RICO CASE STATEMENT PURSUANT TO THE LOCAL
RULES” STANDING ORDER IN CIVIL RICO CASES
Plaintiffs hereby file their RICO Case Statement as required by Local Rules as follows:
1.

Tfce alleged conduct that is darned to be a violation of 18 UJSLC. 196 fal. (bl fel
amd/orlTdi
45. Plaintiff asserts claims listed in Introduction and below for violations of 18 U.S.C.

Sec. 1962 (a), (b), (c) and (d).
46. The individual RICO Defendants named herein formed a strategic alliance with THE
MOSAIC COMPANY (aka Mosaic Fertilizer). Environmental Protection Agencies. Center of
Disease Control, Greenberg Traurig Law, Southwest Florida Water Management District,
Sarasota County, Manatee County, Hillsborough County, Desoto County, Lee County, Collier
County, Pinellas County, Pot County, Broward County, Dade County, Palm Beach County,
local water supply regulatory Agencies, Hospitals, Hospital Foundations, Leaders, Banks and
Pharmaceutical groups to keep Cancer rising from Water Supply7 LOW Level of Serv ice with
poor raw drinkingwater resources.
47.

DEFENDANTS collectively and politically through local Engineering,

Environmental and Consulting selections by Hillsborough, Pinellas, Pole, Pasco, Manatee^,
Desoto, Charlotte, Lee, Hendiy, Polk County(s), as well as Municipal Cities within, Peace River
Manasota Water Authority, Tampa Bay Water and Southwest Florida Water Management
mU together to colect massive amounts of Revenues by making maSfons skk with higher
22

cancer rates, more Medicine sales, bad medicine production with poor water resources and
inflatiiqj Medicaid cost and Wator bills (see Gilbert! vs Ardunra, et. aL RICO filed in Middle
District where discovery was skipped to hide the US Resource by their Continuing Service
engineers for local counties and agencies).
Clean Water Act
Section 5©5(aX2) of the Clean Water Act. (CWA) and
Section 1449(a)(2) ofthe Safe Drinking Water Act (SDWA)
L

1L

Failure to Utilize Highor Level of Service for Raw Water
Resources from EPA and Peace River Manasota Water Authority
Florida hidden Underground Alkaline Endless Spring Water River
and improper use of State Revolving Funds, US Grants to build
potential Terror attack above Sky Reservoirs (Z3KA Ponds) via RV
Griffin Reservoir afar Hurricane Cfarife pursuant to Ttfe 42 ULS.C.
to protect the Public Safety and Welfare of US citizens at the Tap of
a 4 to 6 County Regional System.
Harboring known US Terrorist Attacks sunrounding this
critical medicine changing Unique underground Spring wafer
mixture and Resource and its court docket timing to kidnap THE
ENGINEER Gilbeiti while attacking his land and his clients land
with Florida Dept ofJustice and Leaders.

2.

The identity of each defendant and the alleged misconduct and basis of liability

3.

List the alleged wrongdoers, other Rian the defendants listed above, and state the
alleged misconduct of each wrongdoer:
4ft.

See related eases of Racketeering eases on common defendants and agencies

listed in this complaint and past that are headed to the US Supreme Court and more to be
filed as this World Resource is not leaving or moving anytime in the next lOOmillion years.
4.

5.

Identity of the alleged victims and the manner in which each victim was
allegedly injured.

A description of the pattern of racketeering activity or collection of unlawful debts
23

alleged for each RICO claim:
50.
5.

See attached.

A detailed description of the alleged enterprise for each RICO claim:
51. The individual enterprise Defendants acted as an enterprise within the meaning of 18

U.S.C. 1961(4) which defines “enterprise” as “any individual, partnership, corporation,
associations or other legal entity, and any union or group of individuals associated in fact and
aMiraaiigh not a legal entity”
a. The Individual RICO defendants are named at the top of the Complaint and Parties
listed. Defendants here are employees and/or agents of various levels of Stale and Local
government in the State of Florida and US Congress as well as major Wall Street
groups, and local land developers, hankers, appraisers, environmental and Engineering
(Dmmaijilfaiitls, tatttflinig craps, HospSaJ ifoannafeflSoins amid mrana. Together, amd tferraiglh fcir
various government roles framed an association in such as but not limited to the
Florida Water Forum, Enterprise Florida and Sarasota Tiger Bay Club. The
DEFENDANTS consisting of the individual RICO defendants named herein set forth
in tMs complaint, used their authority and power to develop and carry out tie fiscal
setarne to tuse ttemriic poflltortted, oaScmative Peace River water and arsounc Gnmunnd
raw resources instead of Alkaline endless spring water underground rivers (ready to
drink). The Peace River was known to be unsuitable for use and expensive to properly
treat, and DEFENDANTS want to steal the land, hide the volumes and sell medicine.
They war* to hide die knowledge that finds many more in days.
b. DEFENDANTS purposely hid US Resources from millions of People that affect
National Security, Economics and Government overspending and borrowing
from the Rothschild IMF Banks; at the Federal Reserve by holding back the
sustainability and FREE Energy and Medicine this US Unique Resource
provides to MUooins of WorM Fanpfe.
c. DEFENDANTS held up years of good Trade with other nations keep Wars
moving as this site shows mankind how to find Endless Clean Water, hence
endless food and reasons for World Peace and no anomies or boundaries. Why
its knowledge opens.
d. DEFENDANTS working w ith the Federal Reserve collect over 5600 billion in
Interest each year from $20 Trillion in Defat that was only $1 Trillion when RV
Griffin Reservoir was installed instead ofexposing this World Water and Energy
knowledge this resource teaches the University system and all the innocent in the
government. The rotate tax base to Judges with large land tracts making
decisions on cases and working in foe same circuit like Judge Hall, Judge
Kimberly Carkon Bonner and many more, attacking America.
e. DEFENDANTS manipulated Tampa Central Command and Local Leaders,
24

Police* Judges, EPA, Swfwmd and Tampa Bay Water Authority to hide this
Resource with the Bush Family who invests in Water Resources to hide them
w ith Coke and Meat to keep War Machines going and Migration of immigrante
who dtauft have lesosences in tier town for food and Water due to Weather and
climate in colder areas.
f.

fc

The CDC and World Health Organization with World Bank/Federal Resave Central
Banks ofthis World Water and Health knowledge with this Enterprise. Obama, Trumps
Biden. Bush Clinton and EPA administration for decades to kill Americans and cause
more viruses through pathogens in waiter by faidta* this Global resource and it
knowledge to find die rest in days, hidden by Hie same Florida and Tampa Central
command enterprise of idiot Judges, Cops and Lawyers lost now.

State w hether you alwfait describe i»
tomthe pattern of racfcrtceriag
activities and «fcer«rihrn»risc are separate or have ■creed iaip owe Cathy:
52.

7.

The afcpd ftfalio«km hriwtti the activities of the eaterprise aad the pattcra of
ia which the
racketeering activities differs, if at all, from the usual and daily activities of Its
employees.

8.

The beaefits. if aav. tie alleged ortermwe receives or has received from the aheged
patient off ladfacteeriaw53.

Judges surrounding the properly and Commissioners have worked with FDEP

and Leaders to hide this resource as Lennar. Culverhouse, Palmer Ranch. Lakewood Ranch.
Benderson Development, Debartolo, Bottling corps and more hid it to sell medicine, bottled
water, cancer centers and arsenic homes to US Citizens. Filling the tap of Ilosphals with treated
RadteetOve rims from Pease River, the vmtst Water plant m Florida right nest to tMs
underground river! They all knew and killed American kids who never had a chance! For
Money ! And Votes!
54.

DEFENDANTS have capitalized on military spending as Wars and Hunger would

be massively reduced once tins site opens the know ledge to find more via Meteor impacts to
Oceans beneath Earth.
55.

Describe the effect of the activities of the enterprise on interstate or foreign
25

commerce.

9.

IS the tuwnbiit afcges a violation of 18 HSLC. Section l%2tai provide the

following information:
56.

The Vauk and timeline will detail out the coordination with Judges. Circuit

Courts, Federal court in Tampa and abroad working with a network tied to US and Florida
Leadens, Developers and Media to subdue the Engineer timed with civil cases, permitting the
resource and whistleblowing the resource in a Petition ofRedress using Social Media, emails and
more as a Utility to expose Earths Nol Health and Energy Resource and Global knowledge
hMdhm from HmimHlty!! These Judges and Courts all meed to he amnestied and replaced wih
REAL AMERICANS! The Leaders, Cops, Teacher and more were too scared to help, like what
>«a see with the masts and nobody exposing this S20bill crap"! Grow up Judges and Courts as
your done. And if this courts dismisses this or allows a sale to proceed with Terrorist on this
land and attacking this land, then this Court is next on the list for a civil case until we go through
5® State and everyone is detained fey the masses. Hofeody is above the Law and tie lawyers,
Judges and their game is OVER!
12.

If the awnhirt atltycs a violation of 18 ULSLC. Section l%2(bi provide the

57.

Racketeering through a long time known Tri-State Florida Water wars in the

panhandle involving water supply groups hiding these secret underground Rivers in Alabama,
Georgia and Florida to pay lawyers and tax Citizens while hiding the true water resources.
Kidnapping THE ENGINEER with corrupt Judges and shooting building up w ith Broward Cops
and faking Parkland shooting. Tito timing is so dwious and millions know. And soon many
Parkland kids are going to cross as promised. Then all Judges involved are arrested as we have
the Petitions building now.
26

13.

If the complaint alleges a violation of 18 U.S.C. Section 1962(ch provide the
following iifomalioi:
a.

The indiividualbs who are employed or associated with the enterprise:

58. See Defendants, Introduction and list of groups described in the Complaint that will
grow with discovery and other lawsuits tied to this complaint throughout Florida and the United
States.
b.

Whether the same entity is both the liable “person” and the “enterprise” under
Section 1962(c)

15.

If the cawhint xBcgcs a viofaiioB of 18 CLS.C Sections 1962fdl. describe w H«*»g
the alleged conspiracy.

16.

The alleged mingy to bnsiaess or property

17.

The direct causal relationship between the alleged injury and the violation of the
RICO Statute.
59.

THE ENGINEER has suffered loss of Home, business. Reputation, monies,

family members, emotional damages as well as his client from the DEFENDANTS massive
Torts and US Terrorism acts to the United States of America and the US Resource.
DEFENDANTS took almost 15 years of the Plaintiffs life and time with his Children to kill
Americans with Cancer rates and overcharge for Medicine.
60. See damages stated in Vault that w ill show monies and pumping rales in the Millions
of dollars per day. But nobody can put a price on tost time with family, death of family
members by this Enterprise as they killed my father while I’m in the Tampa Hole, as he had
the down the Hole video disks that show the endless capacity. All Judges are harboring
Terrorism and Murder with 72 Partners and Florida Leaders, Washington Leaders, including
Obama, Bush, Clinton, Trump. Bidea. Pence and all Congress who have known since 2012

18.

The damages sustained for which each defendant is liable.
27

61.
19.

See above. TBD. Exceeding $15,000.00 US Dollars.

A descriptiou of the Federal causes of adkw. if aw.

mi!

dtatioa to the iriaart

statutes.

i. 42 U.S.C. § 1983 - SUBSTANTIVE DUE PROCESS - DEPRIVATION OF
CONTRACTUALLY CREATED PROPERTY RIGHT
Si 42 UJSjC. §1983 - PROCEDURAL DUE PROCESS - DEPRIVATION OF
CONTRACTUALLY CREATED PROPERTY RIGHT
iil 42 U.S.C. §1983 -SUBSTANTIVE DUE PROCESS- STATE CREATED
DANGER
w. 42 U.S.C. §1983 - SUBSTANTIVE DUE PROCESS -BODILY INTEGRITY
v.

Section 505(a)(2) ofthe Clean Water Act (CWA) and
Section 1449(a)(2) oflife Safe Drinking Water Act (SDWA)

vn.

FltomSai Deceptive and Umflair Tirade Practices Act fTDUTPA”). .

vii.

Florida Fair Lending Act, section 494.0078, et seq. (‘TFLA”)

viiL
ix.
20.

Florida Consumer Collections Practices Act (“FCCPA”)
CIVIL CONSPIRACY
A description of pendent state claims in the comniainL if anv.

L Fraud on tfe Courts and Terrorism using Smih-Mund! AdL
ii. Breach of Fiduciary Duty as an US Agency to Protect the Public Safety, Welfare and
Security ofTHE PEOPLE
iiL Nuisance
iv. Negligence
v. Gross Negligence
vi. Unjust Enrichment
vii. Conspiracy and Racketeering of Federal Funds to pump Radioactive water and sell
medicine to millions of innocent People. To fill Cancer centers with dead children
viii. Trespass
ix. Intentional Infliction ofEmotional Distress
28

x. Negligent Infliction of Emotion Distress
21.
61.

Any mMWmmI information plaintiff feds monM he MuM to the Croat «
procH9i«g the RICO ffaiiPlaintiflfe believe and wish to emphasize that a significant volume of highly

relevant evidence supporting the claims herein will be obtained through discovery. Plaintiffs
reserve their right to supplement this form as this information comes to light so as to provide the
Court with these additional facts. For example, criminal investigations into this matter are
paradirag and haw yet to disclose their findings or reports. In addition, plaintiffs had mot had the
chance to obtain email correspondence that will likely further reinforce every feet and allegation
contained herein, as many of the individual defendants named herein have been moving to new

62. Plaintiffs reserve the right to amend the DEFENDANTS and actions set forth above
iffdiscovery andfer further investigation reveal that any should be expanded, divided into specific
enterprises regarding said issues that collectively are working in a mob, or modified in any way.
VL COUNTS
COIWTI: §1983 CLAIM OF RETMLIATIOM IOR EXEROSE OF FIRST
AMENDMENT PROTECTED FREE SPEECH ACTIVITY AGAINST DEFENDANTS
63.

Plaintiffs (THE ENGINEER) re-allege and incorporates by reference all ofthe

preceding paragraphs in this complaint.
64.

Defendants personally, maliciously, and under color of state law deprived

Plaintiffs of Plaintiffs" rights under die First Amendment to die United Stales Constitution,
which are secured through the Fourteenth Amendment, by maliciously retaliating against
Plaintiffs for Plaintiffs' exercise of the constitutional right of free speech to protest government

interfering with the State’s operations.

29

65.

In depriving Plaintiffs of these rights, Defendants committed these unlawful

violations under color of state law in bad faith and with malicious purpose in reckless, wanton,
and willful disregard ofPlaintiffs* human, safety, and property rights.
66.

This deprivation under color ofsfate law is actionable under and may be redressed

lh>y42HJ.S.C. §1983.
COUNT II: § 1983 CLAIM OF FOURTH AMENDMENT ILLEGAL SEARCH AND
SEIZURE OF PLAINTIFFS* BODY AND PROPERTY AGAINST DEFENDANTS
67.

Pflaiutiils re-ale^ and ifflcorpiMate by

this complaint
68.

Defendants personally, recklessly, maliciously, and under color ofstate law

deprived Plaintiff ofPlaintiff’s liberty rights under the Fourth Amendment to the United States
Constitution, which are secured through the Fourteenth Amendment, by forcing Plaintiffs to into
jjais and subduing Ms family maatnbeffs without a warrant or any probable cause to believe
Plaintiff committed any crime.
69.

In depriving the Plaintiflsoflheto rights, Defendants committed these unlawful

violations under color of state law in bad faith and with malicious purpose in reckless, wanton,
and willful disregard of Plaintiff’s human, safely, and property rights.
7®.

IMs dqprivaltkM iiiiiadercokjrofstato law is actsan^hie under ami may tereiires!^

by 42 U.S.C. §1983.
COUNT ID: STATE TORT OF CIVIL CONSPIRACY AGAINST DEFENDANTS
71.

Plaintiffs re-allege and incorporate by reference all ofthe preceding paragraphs in

this complaint.
72.

Defendants awaspined together to commit illegal searches of Pkintiflis’ body and

property in violation of the United States Constitution’s Fourth Amendment as applied to the
States via the Fourteenth Amendment. These probes by State employees were done without a
warrant and with reckless indifferences to Plaintiffs’ rights.
30

73.

Defendants conspired to retaliate against Plaintiffs for Plaintiffs’ clearly

established First Amendment constitutional right to voice disapproval of Defendants actions m
Water Supply.
74.

Defendants, together, retaliated against Plaintiffs by attacking Plaintiffs family

manmfeos, thre^tmmg PSaMiffis Aram tool pswmmarott tasMimg“s to stop pmniting and exposure
of the US hidden Resource so Plaintiffs could not obtain transparency, and ultimately forcing
Ptentffls to o take pleas in duress with timed fake criminal cases with civil land and lien eases in
other circuits counties apart to otherwise injure Plaintiff.
75.

The actions underlying this conspiracy are illegal under the United States

C®msttfiMtoiniT,s Farsi ami Fourth Amendments as applied to Use Stales via die Fourteenth
Amendment.
76.

This deprivation under color ofstale law is actionable under and may be redressed

by 42 U.S.C. §1983 and 28 U.S.C. §1367.
COUNT IV: 42HSLC. § 1983 CLAIM AGAINST DEFEMDAMTS FOR RECKLESS
IiNBIFFERFNCE TO PLAINTIFFS* CLEARLY ESTABLISHED
CONSTUTIONAL RIGHTS
77.

Plaintiffs re-allege and incorporate by reference all ofthe precediiK paragraphs in

this complaint.
78.

Defendant’s encouraged, caused, allowed, and/or enabled Defendants to violate

Plaintiffs* constitutional and state rights without fear ofdiscipline for those violations. See
Monell v. Department of Soc. Svcs., 436 U.S. 658 (1978).
79.

Defendants demonstrated a policy ofdeliberate indifference to such civil rights

vtoMtons. See Gap qfCanton v. Harris, 4S9 O.S. 378,389 (1989).
80.

Defendants callous, reckless, wanton, and malic ious actions under color of state

Saw before, during, and after this loss, have caused Plaintiffs to suffer and continue to suffer the
damages Plaintiffs have described.
31

81.

These deprivations under color of state law are actionable under and may be

redressed by 42 UJSjC. §1983.
RELIEF REQUESTED
WHEREFORE. Plaintiffs respectfully request the following relief:
A. POaiinttiffls re-aleges and

by reference al ©ftthc preceding paragraphs m

this complaint,
B. Trial byjury cm all issues so triable;
C. General and special compensatory damages;
D. Punitive damages;
E. Imgimdtree relief ordering Defendants to stop al Walter indrastouetore finding off in
Florida until this resource is assessed and tied into the Peace River Manasota Water
Supply system; Detain all Civil Servants, Enguiecrs*, Consultants, Lawyers and Poiee
who falsified Police reports, water supply resources studies in the region, and ignored
the timed Terrorism and called It ‘Patently Insubstantial* or ignored it.
F. Amand to Fflainriffils ©Treasonable s^tonmeys” fees and costs immured in ennedtu with
this action from the Defendants pursuant to 42 U.S.C. §1988;
G. Stay al Florida Court and US Court proceedings to with this care to move to
discovery as Pipeline permit is finalizing and other case Judges, Courts and more lied
and are being investigation for US Treason.
H. Affltsw time to depore alJimdlges ami persons off itfiteest feted in theVaul to open the
rest of these secret underground resources they hid for years to kill Americans and hid

I. Initiate a Emergency Stay on the ILLEGAL Sale being processed by 72 Partners LLC
and Sarasota County Clerk and the Sarasota Circuit 12 Judges caught in a Eugenics
and Racketeering ©pdraftsm mvoMmg a US Critical medicine resource hidden by
32

Tampa Central Command, Bush Family and a long list of Florida leaders, developers
and Tampa MoflBt Camera- centers.
G. Pretrial interest on compensable attorney’s fees; and,
EL Such further and different reliefas is just and proper or that is necessary7 to make the

PBaikittiiffwtofe

nEMASVn FOR A JlliRV TRIAI

ofright.
Date: September 4.2020

IslQac tjiM&U
Joseph D. Gilbert!, Jr., P.E.
Plaintiff'
385 DtorntwaBM
Ft Myers Beach, FL 33931
gilbertiwater@,gmail.com
www.gilbertibluegold.com

ft:

US House ofRepresentatives
Administrative Council
Ford House Office Building
Boom 217
Washmggltam DO, 20515
Honorable William Pelham Barr
Attorney General
UJBL Department <rf Justice
950 Pemmsylraumiia Awnnraue, MW
Washington, DC 20530-0001
IIS Senate Committee on Homeland Security and
Gopiramnineut: Affairs;

340 Dirksen Senate Office Braiding
Washington DC, 20510

33

EXHIBIT A
Hundreds ofUS Citizens and Activist group Request Engjinearing Gilbert! AS EXPERT
FACTS
Public records correspondences between Desoto County Commission, Charlotte County Congress
Pablic requesting Engineering Gilbcrti as expert to
Sarasota Assembly
expose Mosaic and this W;
Supply —hr attack presented mi Fehrmiy 18,202CL

Hi Mandy, Chi Febsuasy 4th 2EX20 at 1222pnt i sent yew a request far art expert Witness to represent the
stakeholders of Desoto cowtiy at the Morale workshop on Febreeay 18Bi and hre not heard back from
you since. Please contact me before tomorrow’s meeting.

Ttanfcyou
Mike Zarzano-county steward
Ctatolte County Congress
941-800-7555
Sertt bom my iPhone

From: Charlotte County Congress <charlottecountvconaress@amail.com>
Date: February 4, 2020 at 12:22:12 PM EST
To: Desoto County Admin Mandy Hines <m.hines@desotobocc.com>
Cc: sarasotacountvconQress@amail.com
Subject: Expert Witness Request-LandTech Biography 2020.pdf
To Administrator Mandy Hines,
Pursuant to the rules for expert testimonyThis is a formal and official request by the concerned people and stakeholders of Desoto county and in
adjacent Charlotte county to provide an expert witness at your Desoto county workshop on February
18,2020 at 9am and 1 pm regarding Mosaic mining and the potential threat this activity poses to the
surface water and the deep Floridan aquifer under Desoto county and all adjacent counties in the region
and toward the southward direction of the natural water flow.
Attached you will find the bio, credentials and resume of Professional Engineer Joseph Gilberti. In the
next email we will provide a sample of the subject matter and issues at hand on the table to be discussed.
Thank you.
I am sincerely,
Michael Zarzano
Admin-Charlotte County Congress (NGO)

34

h
LamdTodii Derigm Cramp. Iimc_ a

Land!ech
design group, inc
mrltilSed PrafessBemal ErngjmBrarirag firm, provides rail

pJannmig and engineering: consnMng sendees, due diligence; permit expediting and construction
management to clients in both the public and private sector. Our expertise lies mainly in the land
development and real estate analysis

with emphasis on permitting and business development in the

auras of emgpiffieng and ©fflnBlnirite of pfamed raidanttiiail fflogJiMMiMMsds, eommmaiall and metal
shopping centers, rock pits, roads, pump stations, railroads, and golf courses; access management,
fermiting right of-way acquisition: outdoor advertising growth management and airport devdopmanL
We ate provide a broad array of due diiiganee conisdlliqg services and irepngsanft chants before tie
throughout He Eastern United States, predominately tie Stale ofFlorida, as wdl as the Caribbean Islands.

LandTech Design Group, Inc. currently serves as business and program development consultants to
tains Corporations, Developers. Limited Partnerships and Joint Venture investors. The organization
ate provides emmnoitt domain expertise to Saw limns and several prufcffic entities tinruiBgjlMrat lie state. We
provide consulting services for both private developers and public entities as to land utilization regarding
growth management, permitting, condemnation. Acquisition Perfbrmas. airport development, funding,
amd grant assistance.
Our staff has served a variety of clients who have business interests in the planning and Real estate
development field. Mr. Joseph Gilbert!, P.E. is a native Floridian and second generation professional
dwi etmgmeerr who has bean a sssfe proprietor in dhril angjmesriing and site devdlopmant eomtoaetiing; isr
over 20 years. He has worked in South Florida within the Tri-County area for major engineering firms
such as liRS. Dames & Moore. Cra% A. Smith & Associates. CCL Consultants and others under various
onndtn^s amd as office

Heading brad Urge and small devdopmoisu

Mr. Gilbert’s has over 25 years experience with South Florida Water Management District, St John
Water Management District, Southwest Florida Water Management District, Lake Worth Drainage
District, Fferrikk Bepantrnmit ofEmrimommaitfSil Ptrotetiotra amd tie Army Core ofEmgjmaars. Mr. Giberrti
has also worked with Dade, Broward and Palm Beach County and all of the City’s within these Counties
throughout these past y ears and has now developed relationships with mam west coast areas such as
Cottar Connnfly., Lee County, Ctarfaitte and Sarasota Counties and nmm
private and pubic sectors.

35

across Florida oon feed

EXPERT RESUME
ACCEPTED FOR WATER SUPPLY BY LOCAL PUBLIC AMD DESOTO COUNTY WORKSHOP
ON CRITICAL WATER SUPPLY AFFECTED BY MINING CAUSING CANCERS
JOSEPH D. GILBERTI, P.E.

(813)470-6000

Tide

San^CMIlPins^MMiagarA>Mnniar

Expertise

Civil Engineering and Project Management for small to very large scale land
development projects. Permit expediting and due diligence. Owner of LandTeeh Design
Group, Inc_ a Hfcemsed Planning. Engineering and CcnsailtiiK firm in Florkfa Sar
ainyuimiinnuiiillicHy 2SjynS—Cfll tifikailltc uffAturltlWii jjas&itmdRT/S&Q

Academic

Bachelor of Science, Mechanical Engineering, University of Florida, 1993
PrufosionifflJ Ein^i^r Flkawia PE S560W
ASCE American Society of Civil Engineers
ASME American Society of Mechanical Engineers
FES Florida Engineering Society
Engineering Contractor CLASS A - Broward County CCSS7-911

Experience

Self employed for the last 20 years in the State of Florida. Civil engineering planning
zoning and construction administration knowledge throughout the State of Florida for
over 30 years. Similar consulting experience within the surrounding stales such as GA,
SC, NC and the Caribbean islands as wdL Land development engineering pnajeetts
wiifcfeseaiosraiiiirfiijgsfefeasiiffi^
approvals; value engineering; construction cost estimates; construction management and
inspection: environmental issues, as well as complete engineering site work design
induEiig site planning and processing; due diligence: water distribution system;
edlltotMwi and ttnanramfissikMi systems: surface water mMragpmertt and site
sftraiirara^ systems; ponding and grading; design? and pffivemnantt mm&mnig and sjjgpffijgE.
Similar project experience is as follows:

$

Pfans and Resramiee atees® teaumtls for a fintee StMtaite Tnamsmniissrimi System) alfamg UJSL
Interstate 1-75 providing Alkaline mineral spring water to existing municipalities, utility service
areas to millions of Taps solving public needs via National Resource Defense Council issues
resounding Florida North South Water Supply Conflict. Land owners with Resource and Engineer
of Recced fin create over one mmlliom mew jjdbs? new medidnne and Sower waiter utility cost to

$
$
$
$

River Hall Storm water management permitting - 1000 Acre Subdivision - Lee County, Florida
Somerset at Plantation - 500 Acre plus Subdivision along Treeline Ave- Fort Myers, Florida
Paseo Development - 850 aore pins Subdivision - Lee County, Florida
Multiple residential sdrdmsin^ municipal projects? schools, parks and public facilities
«Jirnoiiig(liimtCoJI5er/TjEeCJt[mirta
Murdock Transportation Facility - Charlotte County School District Bus transfer station

$

36

$

9
9
$

9
9
$
$
$

9
9
9
$
$

9
9
9
9
$
$
$
$
$
$

9
9
9
9
$
$
$

9
9
$

9
9
9
$
$

9
9
$
$
$

9

Charlotte CTC Votec Educational Cents - Port Charlotte, FL — Science building
expansiontoenovalions and SWFWMD permitting
Gladiolus Drive - SWM PemM Modification® to CIH> systtrans frar LCDOT
Pnirna Loace - 105 Unfit Tumi Tower HGyin Rise om River - Bfflwmtetwini Firstt Start - Font Myei^,
Florida
Hidden Lake Residential - Multifamily Subdivision - Bonita Springs, Florida
Trading Preserve - Mixed Lise - QtmmarctaFMuhifainily Mini Mall plaza - Fat Myers, Florida
Various Cccnnreraal Retail and Office projects—Charlotte are! Sarasota County
60S!® Aero DueDiiKg^anice for Canrananrtla Properties - DeSoto County., Florida
Multiple 2500 Acre plus Due Diligence within Hendry County, Florida
Paradise Shoppes of Estero - Commercial/Retail Plaza including Publix and Walgreens - Lee
County
S.R. 80 Lighting LAPP Coradination - Continuing Service frith CFM fa dowitown lifting
iraninivatiofliH/Aepfflir and gpart finding.
Various Civil design and permit expediting fa EMnanflary^MkMle and High School Projects
within Col 1 ier/Lee/Charlotte Counties
Deering Bay Marina — Coral Gables, Florida — 35 slip Yacht marina — drainage, permittii^,
dredging and utilities
Doral Honsiiig Dmdo|
— Homestead, Florida — infrastructure hr multifamily and single
fcirafily reradbnllraD areas wifi tm» parte
Florida International University - Miami, Florida - Student Housing Facilities
SSDI Storm Utility — Miami Beach, Florida—Utility construction within Portofino DR1
Mitsubishi Saks & Service—Miami, Florida—site engmeeriqg and Regudatory approvals
IMvershy off Miami—Due Diligence for fiflHme stodsnt hnoisiimg
Mmrfi MBamni Beach—VariraoiB Traffic Cahmiiijg analysis wAMnn city finite
Biscayne Boulevard - Various drainage studies for overall improvements
Silva Lakes and Silva Shoes — Broward County — 1300 acres of platting and engineering
including connncrcial and residential development, parks and roads.
Port Evergjatfes Berth 30 Crane Rail Extension
Hffliy«s®D)iFasiihM Mail - Atttenafirans and Sifi Renovations
Land Section 8 - Plum Bay/Plum Harbor, Tamarac, Florida - 500 Units
Alhambra Springs - Pembroke Pines, Florida - 291 Unit Subdivision
Bonaventme Tract 13,30,31, Broward County, Florida - Town homes
Indigo Lakes. Coconut Crest Ftoridh - 450 IMt Subdivisiati
C®raflB^.M»piti^Ftomkk-MffisteDraiiinH^RCTi^^
Cameron Waterways, DeerfieSd Beach, Florida - 300 Apartments
Sawgrass Exchange, Coconut Creek, Florida - 570 Units Subdivision with Commercial
Samoset at Jacaranda, Plantation, Florida -150 Town hones
Village at Harmony Lakes, Davie, Florida -572 IMt Subdivision
IMms alt Sawgtas Mills, Sunrise, Floida -400Apartments
Jog Estates, P.U.D. in Ptifan Beach County -104 IMt SuMvfeiot
A-4 Lift station Restoration- Town of Palm Beach at the Breakers Hotel
Yacht Club at Highland Beach, Palm Beach, Florida - Mid-rise Apartments on A1A and
Intercostals Waterway Areas
Barefoot Cove, Hypofise^ Florida -115 Apartments and USB Tram Dames
Town fflfflMm Beach D-12 Pump Stations
City of West Palm Beach Parks & Recreation — Numerous Parks and Cemeteries
Marriott Ocean Point — Palm Beach Shores, Florida—site civil er^ineaing/permitting
Highland, Roosevelt & Addison Elementary, Palm Beach County, Florida
City Pahc&e^ Palm Beach Canty - Water & Sewer Infrastructure Improvements
CShades Chniaiil^CZhuuiacflOuiasd] Fsncfflffi^ GJbnAEs Chman^',
Dodl J^riESsmii
The Pavilion Parking Garages — Tampa, Florida - Multi-story parking garages
Crestwood. Royal Palm Beach, Florida - 218 Unit Subdivision
Flyatt Resort & Casino—St Kitts. West Indies
37

$
$
$
$

Asian Village Antigua Island—1800 acres of Resorts, golf courses, villas and homes.
Exuma Bay Island Bahama^ FL - Multiple hotels and golf course dev elopment for entire island
imcliudBm^ <daesBailliiiniiggttBOTii pfemflSB mmffiratsttmmcflnBr^ aanaft envmniaamniegBtlaa pamnitiBgi^
Emm INStasgam Power Plbntts—DteBnimoim RqnuMac, INIewJcts^&iiuthA^
ACOE Beach renourishment projects — Various cleanup earthwork dredging plans from Hurricane
Hugo damages for the eastern United States.

$

Oapd Taals p®0 acres) - W«arik drawings amrwty, lapnufe for dramiiidking fil, Mae excaratlMMa
and roadways. Estimated and supervised entire section contracted out.
Tamarac Public Service Complex - Installed parking lot and lake, subcontracted infrastructure for
General Building Contractor.
Jones Intereable Complex - Wok drawings. estimated and supervised off-site roadways, paridng

$

MraiipteffeMisiBpecIfioiiiBpartamii^tocMlaiiMutiity issues fir Jobs listed ahowe.

$
$

Citizenship

United States. Born March 20,1969, Miami, Florida.

38

EXHIBIT B
EDEP PERMIT AND APPROVED ENGINEERING PLANS FOR PHASE 1 SPRUNG WATER
PIPELINE TO WEST FLORIDA AND SOOTH FLORIDA REGIONS
HIDDEN BY DEFENDANTS DURING A NATIONAL CORQNAV1RLS PAiNDEHIC
Applicant Nane: ROBERT FLINT
AppScant Company: FLINT FARMS LLC/LANDFTECH DESIGN GROUP, INC.
Permit File Number: 0078714-026-DS
Application Received Date: 05/01/2020
Project Name/Description: CLOSER TO THE HEART/Antioxidant Spring Water Transmission
Site Address: **
Dear Applicant:
Thank you for submitting your request for authorization to the Department regarding the above
referenced project
l am currently reviewing your request and will contact you as soon as possible. The Department
values your time and wants you to know that we are working to streamline our review process
and reduce the overal time needed to authorize activities.
If you did not include a fid payment tor this appication's tees and would like to make an onkne
payment for the outstanding balance, please visit the DEP Business Portal https://www.fldepportal.com - and complete the onine payment process for a submitted
appfecabon. Please note that the folowing tee types may not be completed through this process:
* Payments for annual fees
* Payments processed by a local delegated program
* Partial payments for application balances
If you feel you have received this emaii in enor or if you have any questions, please contact me
at Nolin.Moon@,floridadep.gov or 239-344-5672.
Thank you and I look forward to working with you.
Regards,
NofnMoon
■.**4

f

Thu, Apr 30, 7:47 PM (7
days ago)
Gilbert! Water USA Blue Gold <gilbertiwater@gmail.com>
to SRF_Reporting, South, Jon, Nolin, DOHSarasotaEH, LeeCHDEEFeedback, chd50feedb
ack, contact.miamidade, contact, Paul, peter.gaynor, Desantis.OpenGovernment, Robert, J
ohn, Don, commissioners, peaceriver, karen.west, Chris.Constance@CharlotteCountyFL.g
ov, board, whs.pentagon.em.mbx.communications, Wheeler.andrew, Post.CHD006, preside
nt, president, bcc: Charlotte, bcc: FOXaroundtheworld, bcc: 60m, bcc: mayor,
39

bcc: sarasotatigerbayclub, bcc: NYAG.Pressoffice, bcc: nytnews
Dear State Revolving Fund for FDEP Water infrastructure fundteg,,
Please see attached Request for Inclusion on Florida Department of Environmental Protection
PriinlHTBg Water Priority List, 9 mfe Transmission plans for a proposed Service agreement for the
Peace River Loop Option pumping arsenic radioactive treated Peace River with Mosaic and
Phosphate mining spffis, to be replaced with Alkaline spring waterfront a
hidden endless undergroiHKf river.
See attached permits, plans, water readings and application for inclusion funding. With viruses
m Pathogens of Water, in a Coronavnus Pandemic, this economic and health resource goes to
the TOP OF THE LIST.
This Water mixture is unique and so is this hidden underground river that can be validated in
hours.
Please contact me if you have any questions or concerns. Please forward this to Ron Desantis
and your office reviewers Rnmediatefy so we can begin a afiaSne housing boom in West Florida,
new medicine and World Exposure as these hidden underground rivers are all over Florida,
USA and Earth, see G3bertibluegold.com.
https://voutu.be/OU p22bQwl_q Access to Underground River showing pure spring water ready
to drink hidden for 50yrs by SWFWMD and more.
E Closer to the Heart - Alkaline Spring Water Ser...
Sincerely,
JoeGitoertiPE
813-470-6000
qilbertiwater@qmail.com
--------- Forwarded message--------From: Gilbert! Water USA Blue Gold <qilbertiwater@qmail.com>
Date: Thur Apr30r 2020 at 5:37 PM
Subject Re: Electronic Notification of receipt/CLOSER TO THE HEART/0078714-025-DSGP
To: Iglehart Jon <Jon.lqlehart@floridadep.gov>, South District <SouthDistrict@dep.state.fl.us>
Gk Moon, MoSn <Nolin.Moon@floridadep.gov>. Robert Flirt <flintfarms5277@vahoo.com>
John Larry <asepls4349@qmail.com>. <SRF Reportinq@dep.state.fl.us>.
<SouthDistrict.pws@dep.state.fl.us>
Dear Mr. Iglehart and Mr. Nofin„
Thankyou very much for aS your help expediting our permitting needs thus far. Its nice to see
Government working so Irani for rifizens in hying lines.
Attached is the individual FDEP permit application for the 9-mfle Transmission for Closer to the
Heart. Piea9e withdraw the General Permit petition and replace it with this petition.
I can have the signed appBcatkm, signed and sealed plans and fee by tomorrow or the same
day we have foe conference callto finalize the items earty next week, which ever is best as this
may be already fine filled out the way It is. 1 have question on minor items such as changes
along the way during construction for the permit due to modifications and such.
40

We are available by phone conference anytime you wish. You have our numbers and
information. I want to expedite this permit for our investors now. ft looks Ske the fee is $900 to
process, please verify.
Pfease verify this application is the correct one, filed out appropriately, as I discussed this week,
so we can file the fee, signed documents, and plans at your office immediatety.
Thank you in advance for your assistance.
Sincerely,
Joe Gfterti PE
813-470-6000
qilbertiwater@gmail.com
6 Closer to the Heart - Alkaline Spring Water Ser...
On Wed, Apr 29,2020 at 9:54 AM tgiehart, Jon <Jon.lqlehart@floridadep.aov> wrote:
Joe,
Our office is closed till further notice - at least till the middle of May. We can set up a telecon meeting.
NoJin Moon will be reaching out lo you to set that up and on the application that we received as a copy of
vsfat you submitted to Desoto county. Smce it's a GP and did no? have a fee and was not signed by the
property owner, we cannot approve it as is* or send a request for additional info. Could you send a note to
either indicate it was not yet meant to tie submitted or withdraw it and then we can go over the criteria to
get a successtul application in during our telecon?
Thanks,
jrm
From: Gilbert] Water USA Blue Gold <gilbertiwater@.gmail.com>
Sent: Wednesday, April 29,2020 9:33 AM
To: igichart, Jon <Jon.Igiehait@FkiridaDEP.gov>; John Lany <asepls4349@,gmail.com>: Robert Flint
<flintfarms5277@vahoo.com>
Subject: Fwd: Electronic Notification of receipt/CLOSER TO THE HEART/00787t4-025-DSGP
Jon,
Can we gel a meeting this week or nevt al your office, I want to go over tins permit petition and
application to maybe consider a individual permit. Didnt know Desoto was gonna waive review.
I also want to verify jurisdiction on Well Field permit at FDEP and some other tap issues for our
Servicing System to multiple water supply Regions via the West and S F la pipeline in FOOT permit now
too in District 1,4,6.
I want to discuss review scenarios we have that tie to tills permit via the large 300mile Transmission
presented to Dade Commission in 2014 and Broward in 2016.
We are presenting to Palm Beach County and about 40 Cities this summer in South Florida and southwest
Florida on Blue Gold to Tap and new7 Medicine and sustainability Resources.

41

r

EXHIBIT C
Gilberti vs Ron Desantis et al — Racketeering Case
In Appeal at 1 ltlb District Court of Appea ls Georgia

42

IN THE CIRCUIT COURT OF THE TWELFTH JUDICIAL CIRCUIT
M AND FOR SARASOTA COUNTY, FLORIDA
CIVIL DIVISION
72 PARTNERS, LLC, a Florida limited
Liability Company,
Plaintiff;
w.

CASE NO. 2021 CA 991069 NC

JOSEPH D. GILBERT!, P.E., and individual
And Licensed Professional Engineer.
DdSmdhnntt,
v.
Federal Bureau of Investigation (FBI), Central
Intelligence Agency (CIA), Department of Defense.
Pentagon (DOD), NASA, Nikki Fried Florida Agricultural
Senate, US Middle District Court of Florida,
Twelfth Judicial Circuit Court of Florida, Thirteenth
Cnoiit Court of Florida, Twentieth Judicial Circuit
Zeoii^Depnrll]nii)eiiii!t, Sarasota Tax Coleettoi;
Sarasota County Property Appraiser, Sarasota
County Clerk ofCourt-Comptroller, Sarasota
Health Department, Lee County Health Systems.
CoStor ©fDisease Control and Prevention, Florida
Power and Light (Nextra), Duke Energy, Peace River
Electric Corp (PRECO), Lisa Carlton, ex-Govemor
Jefo Bush, ex-Presklent Donald J. Trump, US Senator
Mane® Rubio, US Congressman Vera Buchanan, Broward
[(tuir^iEW^.w-dfiiimkiiiiii

Marjorie Taylor Greene, Snyder Law Group, P.A.,
Dade County Board of County Commissioners,
Miami-Dadc Water and Sewer Dept (WASD),
Mn Beach Cmrntty Board ofCounty Commissioners.
Third-Party Defendants.
DEFENDANTS ANSWER TO SHOW CAUSE. FORECLOSURE OF I JEN
COUNTER-CLAIMS. AND TMRP-PADTV CLAIMS

Page 1 of 23

